<html>
<title> - THE ANTIDRUG PACKAGE FOR MEXICO AND CENTRAL AMERICA: AN EVALUATION</title>
<body><pre>[Senate Hearing 110-311]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-311

   THE ANTIDRUG PACKAGE FOR MEXICO AND CENTRAL AMERICA: AN EVALUATION
=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED TENTH CONGRESS



                             FIRST SESSION



                               __________

                           NOVEMBER 15, 2007

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html









                     U.S. GOVERNMENT PRINTING OFFICE

41-289 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001






















                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
ROBERT MENENDEZ, New Jersey          LISA MURKOWSKI, Alaska
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   DAVID VITTER, Louisiana
                   Antony J. Blinken, Staff Director
            Kenneth A. Myers, Jr., Republican Staff Director

                                  (ii)























                            C O N T E N T S

                              ----------                              
                                                                   Page

Isakson, Hon. Johnny, U.S. Senator from Georgia, statement.......     5
Johnson, Hon. David, Assistant Secretary, Bureau of International 
  Narcotics and Law Enforcement Affairs, Department of State, 
  Washington, DC.................................................    10
    Prepared statement...........................................    12
    Responses to questions submitted by Senator Joseph R. Biden, 
      Jr.........................................................    43
    Responses to questions submitted by Senator Robert Menendez..    55
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3
Menendez, Hon. Robert Menendez, U.S. Senator from New Jersey, 
  opening statement..............................................     1
Shannon, Hon. Thomas, Assistant Secretary, Bureau of Western 
  Hemisphere Affairs, Department of State, Washington, DC........     6
    Prepared statement...........................................     8

              Additional Material Submitted for the Record

Gerard, Leo W., International president, United Steelworkers, 
  prepared statement.............................................    35

                                 (iii)


























 
   THE ANTIDRUG PACKAGE FOR MEXICO AND CENTRAL AMERICA: AN EVALUATION

                              ----------                              


                      THURSDAY, NOVEMBER 15, 2007

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:35 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez, presiding.
    Present: Senators Menendez, Boxer, Webb, Lugar, Corker, and 
Isakson.

           OPENING STATEMENT OF HON. ROBERT MENENDEZ,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. The hearing of the Committee on Foreign 
Relations will now come to order.
    It's my pleasure to welcome our witnesses today, Assistant 
Secretary Shannon and Assistant Secretary Johnson. We 
appreciate you coming before the committee.
    We've called this hearing to review the President's 
proposed Plan Mexico. I call it Plan Mexico because it sounds, 
in many respects as I've seen it, like Plan Colombia. It's a 
plan that raises serious questions about our Nation's 
priorities within the hemisphere.
    To begin with, this request has been categorized as an 
emergency. When some of us have known for years the problems 
and needs of our southern neighbors, while we have been ringing 
the alarm bells, it seems to me that the administration has 
repeatedly hit the snooze button. Now they're finally awake, 
but running late, so they've come to Congress without any 
consultation declaring an emergency.
    With Plan Mexico, the President is requesting emergency 
supplemental funding to help combat the drug and gang problem 
in Mexico and Central America to the tune of $500 million for 
Mexico and $50 million for Central America. That is a first 
tranche.
    I certainly take a backseat to no one in my ongoing efforts 
over the last 15 years in the House and now on this committee 
to increase resources for a variety of issues, as it relates to 
Latin America, especially on the development side and, on the 
protection of human rights. But this proposal is long on 
military support and falls far short when it comes to support 
for the people in the region.
    Again, I find it particularly disturbing that the plan was 
negotiated and developed without any consultation with Congress 
whatsoever. That being said, the area where we seem to have 
some agreement is in recognizing that the current drug-related 
killings, insecurity, and fear continue to pose major problems 
for Mexico and for the United States.
    The current level and senseless manner of violence in 
Mexico is both alarming and disturbing, especially considering 
the common border we share. Unfortunately, corruption continues 
to plague institutions at all levels, and on top of that, 
Mexico now faces an increasing consumption and production 
problem.
    For the South, Central America continues to grapple with 
gangs and gang violence, as well as increasing rates of drug 
trafficking.
    There is no question help is needed. The question however 
is how we go about it in the most effective way to reach our 
goals. And that is the question I hope will guide the hearing 
today and how we will debate and amend this package in the 
future.
    On that note, while this proposal has certainly brought the 
problem to the forefront, I'm not convinced it is the most 
effective solution to reach our goals. There are some serious 
shortcomings, which I will address today.
    First, I believe this package takes a one-dimensional 
approach to a multidimensional problem. In your own budget 
justification, the administration cites a quote from former 
U.N. Secretary General Kofi Annan, which rings true to me and 
is worthy of mention. He says, and you used this quote, ``We 
will not enjoy development without security. We will not enjoy 
security without development. And we will not enjoy either 
without respect for human rights. Unless all these causes are 
advanced, none will succeed.'' That's the end of that quote, 
and I couldn't agree more.
    But as I look at this funding request, I see a very one-
sided approach to a very multifaceted problem. That means this 
proposal fails to deal with many of the components that must be 
addressed in order to successfully tackle this problem. I see 
things like eight new helicopters, two new surveillance planes, 
new gamma ray scanners, communications equipment, all of which 
are important catalysts for security, but have little to do 
with development or human rights. In fact, the State Department 
itself, has stated that 40 percent of the assistance in this 
supplemental request will be provided to the Mexican military.
    I'm already concerned about Mexico's increased reliance on 
its Armed Forces for counterdrug activities, because increased 
militarization does not address long-term development and 
reform needs within Mexico, not to mention the human rights 
implications of militarization and of giving money to Mexican 
institutions, which, according to Amnesty International, ``Have 
a long history of serious human rights violations, lack of 
independence, transparency, and ineffectiveness.''
    Finally, it's ironic to me that the genesis for this 
request was during the President's March 2007 trip to Latin 
America, a trip in which he emphasized the need for more social 
and development assistance to our southern neighbors.
    Second, I'm surprised by the nature of this request. To 
come and ask Congress for this money in an emergency 
supplemental request, as akin to now fixing the levies in New 
Orleans. This problem has existed for a while in both Mexico 
and Central America, and I certainly hope this emergency 
request is not just a way for the administration to avoid the 
obligation of paying for what we should have done for years.
    The emergency nature of the request raises other serious 
questions. What is the expected length of this package, 2 
years, 3 years? President Calderon will be in office for more--
for 5 more years. Are we expecting to end this aid before his 
term is over?
    Finally and most importantly, how will this package effect 
overall funding to Latin America in the fiscal year 2009 
budget? I, for one, cannot support a package that cuts further 
into funding for a region that has the highest social inequity 
in the world and that has seen proposed cuts for funding and 
core development assistance every year since 2001.
    The fact that this request is considered an emergency, goes 
to what I believe is a core problem. We have no comprehensive 
policy in Latin America, otherwise we wouldn't be here today. 
We would have been doing the right thing all along and avoided 
this emergency altogether.
    I have several other concerns, but I'll wait until the 
questioning to pursue them. I hope today will be the beginning 
of an honest and forthright debate on this package. I hope the 
discussion will prompt a broader debate about our foreign 
assistance priorities to Latin America.
    If there are no objections, I ask that a statement from the 
United Steel Workers be submitted to the record, on behalf of 
Senator Biden.
    Without objection, so ordered.
    Senator Menendez. And with that, I turn to the 
distinguished ranking member of the committee, Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR.
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman. I 
thank you especially for chairing this important hearing on the 
President's supplemental funding request to combat 
narcotrafficking through Mexico and Central America, known as 
the Merida Initiative.
    Since entering office last December, Mexican President 
Felipe Calderon moved to improve public security in his 
country. And the Mexican Government has committed $2.5 billion 
to combat drug trafficking next year, launched aggressive 
antidrug operations in 10 Mexican States, replaced numerous 
high-ranking Federal police officers in anticorruption 
campaigns, and created a unified national crime database.
    The Calderon government has strengthened law enforcement 
cooperation, extraditing close to 80 criminals to the United 
States this year, including cartel kingpins. It has also made 
record seizures of cocaine, methamphetamine precursors, cash, 
and other assets. The ongoing public security campaign has 
reduced the legal impunity that the drug cartels have 
traditionally enjoyed in Mexico, but it's come at a high cost.
    Mexico has suffered approximately 2,650 drug-related 
killings since the beginning of this year, compared to 2,120 in 
2006. The Merida Initiative is an attempt to seize the 
opportunity created by Mexico's invigorated anticrime campaign 
by funding key programs and building stronger cooperation 
between Mexico and the United States. It recognizes that 90 
percent of the cocaine entering the United States transits 
Mexico and that our efforts to combat this drug flow and 
associated criminal activities depend on a partnership with the 
Mexican Government.
    To assist Mexico's efforts, the Merida Initiative provides 
$500 million, including $306 million for counternarcotics, 
counterterrorism, and border security; $100 million for 
institution-building and the rule of law; and $56 million for 
public security and law enforcement. In addition, the 
administration has proposed $50 million to boost 
counternarcotics, counterterrorism, and law enforcement in 
Central America.
    I'm concerned that this portion of the request falls short 
of what is required. Though Mexico has made progress against 
organized crime, the strength of criminal gangs in Central 
America is growing. Gangs in Central America have emerged as 
major social factors and they've been expanding their influence 
in relatively ungoverned areas as they exploit for their drug 
trafficking operations.
    Central American leaders and public opinion, especially in 
Guatemala, El Salvador, and Honduras have characterized this 
situation as a regional emergency requiring an urgent response. 
Central America is the primary transit point for people and 
drugs destined for the United States from Colombia. Increasing 
crime in Central America threatens regional stability, 
debilitates national economies, and exacerbates illegal 
migration to the United States.
    In the past, political wrangling and resource constraints 
have hampered Central America's response to the drug trade. But 
recently, Central American countries have agreed to strengthen 
regional security through the Central America Integration 
System. Together they have produced a comprehensive regional 
security strategy.
    The Central American officials feel that they will not be 
able to confront threats effectively without more assistance. 
They fear the gang members and drug traffickers will flee 
Mexico for Central America, where it will be easier to operate.
    As one senior Central American Government official stated, 
``In this case, Mexico's gain could be our loss.'' In this 
context, I'm hopeful that additional funds will be found for 
Central America, as this initiative goes forward, perhaps 
during the fiscal year 2009 appropriations cycle. It's 
especially important that the Merida Initiative be implemented 
as a regional plan and progress be evaluated according to what 
is happening in both Mexico and its neighbors to the south.
    In Mexico, President Calderon is laying the groundwork for 
deeper cooperation with the United States, articulating a 
message that makes clear that coordination in sensitive areas 
will require more compromise, more mutual trust, and respect 
for each other's sovereignty.
    One area that requires more cooperation is arms 
trafficking. A member of my senior staff returned this month 
from a visit to Mexico City, where he met with Mexican 
Government officials and members of the Mexican Senate 
regarding attitudes toward the Merida Initiative. He found 
Mexican officials generally supportive, but they consistently 
called on him to relay their concerns about the flow of guns 
and explosives from the United States into Mexico.
    American Embassy officials confirmed that the United States 
is a major source of weapons for Mexican gangs and drug 
runners. As the Merida Initiative goes forward, American 
agencies must work closely with Mexican officials to address 
this problem. We do not want to create a self-defeating 
situation in which a critical foreign assistance program, meant 
to assist a neighbor and enhance U.S. security, is being 
undercut by an illegal flow of weapons originating from within 
our own borders.
    I look forward to the insights of our distinguished 
witnesses on these and other issues related to this initiative. 
And I thank you, Mr. Chairman.
    Senator Menendez. Thank you.
    Is there any other Senator who has an opening statement?
    Senator Boxer. Senator Menendez, I----
    Senator Menendez. Senator Boxer.
    Senator Boxer [continuing]. I don't have an opening 
statement. I just want to say that I have a lot of concerns 
about this, on many, many levels, that I understand you, 
Senator Menendez, really, I think, spoke for me in some of 
those concerns.
    It's--as I see this President veto bills that give our 
people a lot of hope and then he vetoes these bills, education, 
health research, war on cancer, because we don't have money. 
And now we're looking at a huge amount of money for a military 
type of project, which, I don't know, at the end of the day 
does really help our relations. I have just a lot of concerns 
about this.
    Drug trafficking in Mexico is a horrific, horrific problem, 
and no one knows more than my State. I'll tell you, I've looked 
at treatment for all. It's a lot cheaper than this thing. We 
haven't even approached the demand side. So, I get confused 
about this, I get confused about this.
    We don't have treatment for the people who want treatment. 
They're--they're part of the problem because they're demanding 
these drugs. We've got horrible trafficking in Mexico, which we 
all want to end, and it's a one-dimensional type of approach. 
We have all the money in the world for this, but no money for 
our kids here at home, like a million of them waiting for after 
school. I don't get it, I don't get the balance here.
    So I--I'm going to listen and--but I'm a skeptic on this.
    Thanks.
    Senator Menendez. Thank you, Senator Boxer.
    Senator Isakson, do you have anything?

  STATEMENT OF HON. JOHNNY ISAKSON, U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, thank you, Senator Menendez, and I 
won't make a long statement, but I have a keen interest in this 
issue. Some months back I called on an emergency supplemental 
for border security between the United States and Mexico in 
total, because of the immigration issue that this country 
faces. I notice in this proposal, there's some $300 million, as 
I understand it, for border security, which in part, may help 
us with some of the immigration problem that we have.
    Second, it is my understanding that since we passed the 
legislation in the Senate last year, restricting access to many 
of the components to methamphetamine, that the demand is now 
being met by those components coming over from Mexico into the 
United States of America. And I know in the South, there is no 
greater scourge than the scourge of methamphetamine. So I am 
anxious to hear the testimony. I think it does rise to the 
level of an emergency supplemental, if in fact it is 
comprehensive and targeted in those two areas.
    So, I appreciate the two of you being here today testifying 
and look forward to hearing your testimony.
    Thank you, Mr. Chairman.
    Senator Menendez. Thank you.
    With that, Secretary Shannon, we'll start with you. We'll 
have both of your full statements be entered into the record. 
We'd ask you to summarize in about 5 minutes or so, so that we 
can maximize our time for an exchange. And we recognize you and 
welcome you to the committee.

 STATEMENT OF HON. THOMAS SHANNON, ASSISTANT SECRETARY, BUREAU 
OF WESTERN HEMISPHERE AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, 
                               DC

    Mr. Shannon. Thank you very much, Mr. Chairman, Ranking 
Member Lugar, other members of the committee. Thank you for the 
opportunity to discuss the Merida Initiative and the new 
paradigm that it represents for regional security cooperation 
among the United States, Mexico, and the countries of Central 
America.
    As noted, the President has asked for $550 million for the 
Merida Initiative in the supplemental budget request; $500 
million of that funding would go to Mexico as the first tranche 
of what we hope will be a $1.4 billion multiyear security 
cooperation package; and $50 million would target Central 
America, with the hope that as we deepen our discussion with 
Central America on the basis of their security strategy, that 
we would be able to look to additional funding in the future.
    This is an important moment in the fight against 
transnational drug trafficking and organized crime and one that 
requires urgent action on the part of all nations involved. 
President Bush recognized that the United States has an 
unprecedented opportunity to reduce the economic and human toll 
in our cities and towns emanating from cross-border organized 
crime. The governments and citizens of Mexico and Central 
America have recognized the threat to their own stability and 
prosperity. They are taking courageous steps to confront these 
criminal elements, and are now seeking U.S. support to ensure a 
comprehensive and integrated regional effort.
    Over the past decade, drug trafficking and other criminal 
organizations have grown in size and strength, aggressively 
seeking to undermine and intimidate government institutions in 
Mexico and Central America, compromising municipal and state 
law enforcement entities, and substantially weakening these 
governments' ability to maintain public security and expand the 
rule of law. This proliferation has generated a surge in crime 
and violence throughout the region, including in the United 
States.
    None of what I have described above will come as a surprise 
to our partners in the region. These leaders have used some of 
the same language to describe and acknowledge the challenges 
they are facing and they are acting on it. The leaders of these 
nations are already working to beat back violence and crime for 
their citizens and they have turned to us to join them as 
partners.
    In Mexico, President Calderon has acted decisively, using 
the most effective tools at his disposal. He is reorganizing 
the Federal police, putting new and additional resources in the 
hands of his security services, deploying military units to 
support police operations, rooting out corrupt officials, 
attacking impunity, arresting major crime figures, and 
extraditing a record number of drug kingpins and other 
criminals to the United States.
    However, President Calderon has recognized that leadership 
and political will are not enough, he needs greater 
institutional and material resources to ensure both near-term 
success and long-term institutional change. In an unprecedented 
step, he has asked the United States to launch a new 
partnership with Mexico and to help him strengthen Mexican law 
enforcement, public safety, and border security to defeat the 
drug and criminal organizations.
    At the same time, the nations of Central America have 
committed to collective action to address these common security 
concerns. Through the Central American Integration System, 
SICA, the governments have expressed the political resolve to 
join forces to strengthen regional security, however they lack 
sufficient tools and capacity to execute that will.
    The impetus for the Merida Initiative, as noted, came out 
of the President's March trip to the region, particularly his 
visits to Guatemala and Mexico, where security concerns 
dominated the conversations with President Berger and President 
Calderon. In the course of these discussions and the followup 
consultations with both Mexico and Central America, we have 
been able to develop the framework of a new regional security 
partnership.
    Throughout this process, we have tried to shape the Merida 
Initiative to be comprehensive, balanced, and timely. The 
initiative is comprehensive in that it deals with security in 
all its components and builds on a variety of initiatives that 
are taking place now in the United States, Mexico, and Central 
America.
    The initiative is balanced because it involves a range of 
security institutions in Mexico and Central America, with a 
particular focus on building capacity and capability in 
civilian sectors.
    Finally, the Merida Initiative is timely because it 
responds to a real-time threat, as organized crime attempts to 
overwhelm the stability and well-being of democratic States in 
Mexico and in Central America.
    Just as our partners in the region acknowledge the extent 
of the threat, President Bush has accepted that the United 
States shares responsibility and is prepared to step up to do 
our part. This request reflects how the United States would 
like to work with the Governments of Mexico and Central America 
through the use of foreign assistance funds.
    As President Bush has stated, ``Regional problems require 
regional solutions.'' The Merida Initiative is where each 
nation's domestic efforts are combined with regional 
cooperation and collaboration to multiply the effects of our 
actions. It clearly shows we realize that drug trafficking and 
criminal organizations do not respect political boundaries and 
that we must synchronize our tactics and confront the problem 
together.
    The President's vision for this hemisphere is rooted in 
partnership, the type of partnership that the Merida Initiative 
represents. He has stressed that all in the region, including 
the United States, have a shared responsibility for combating 
this crime and violence that so gravely affect our citizens. We 
have far-reaching geographic, economic, and demographic links 
to Mexico and Central America and a compelling national 
security interest in helping the governments of this region 
succeed in the battle against crime and insecurity. We believe 
the Merida Initiative represents the best hope for tackling the 
problem in a thorough manner with our willing partners.
    Mr. Chairman, we welcome your offer to have an honest and 
thorough debate and discussion on the initiative. We 
acknowledge that there has been concern expressed regarding the 
lack of prior consultations before the public announcement of 
the supplemental request. We regret we were unable to engage in 
such consultations. Our intention was to present to the 
Congress a credible security cooperation package that reflected 
the best work of our interagency community and discussions with 
our Mexican and Central American counterparts.
    This process took longer than expected. As we proceed, Mr. 
Chairman, we commit to work closely with you and your committee 
and other relevant committees and staff, to ensure that 
together we can craft a security cooperation package that will 
meet national security interests and take full advantage of the 
historic opportunity that lies before us.
    [The prepared statement of Mr. Shannon follows:]

 Prepared Statement of Hon. Thomas A. Shannon, Assistant Secretary of 
   State, Bureau of Western Hemisphere Affairs, Department of State, 
                             Washington, DC

    Mr. Chairman, Ranking Member Lugar, and members of the committee, 
thank you for the opportunity to discuss the Merida Initiative and the 
new paradigm that it represents for regional security cooperation among 
the United States, Mexico, and the countries of Central America.
    The President has asked for $550 million for the Merida Initiative 
in the supplemental budget request; $500 million of that funding would 
go to Mexico as the first tranche of what we hope will be a $1.4 
billion multiyear security cooperation package, and $50 million would 
target Central America.
    This is an important moment in the fight against transnational drug 
trafficking and organized crime; and one that requires urgent action on 
the part of all nations involved. President Bush recognized that the 
United States has an unprecedented opportunity to reduce the economic 
and human toll in our cities and towns emanating from cross-border 
organized crime. The governments and citizens of Mexico and Central 
America have recognized the threat to their own stability and 
prosperity. They are taking courageous steps to confront these criminal 
elements, and are now seeking U.S. support to ensure a comprehensive 
and integrated regional effort.
    Over the past decade, drug trafficking and other criminal 
organizations have grown in size and strength, aggressively seeking to 
undermine and intimidate government institutions in Mexico and Central 
America, compromising municipal and state law enforcement entities, and 
substantially weakening these governments' ability to maintain public 
security and expand the rule of law. This proliferation has generated a 
surge in crime and violence throughout the region, including in the 
United States.
    We have seen the emergence of gangs as major social actors, the 
corruption of the police, judiciary, and prison systems, and a growing 
popular demand for governments to respond to the threat posed by these 
criminal organizations. The effects of this growing problem are also 
readily apparent in the United States in the form of gang violence, 
crime, and higher rates of trafficking in persons and illegal drugs--
all of which threaten our own national security and impose mounting 
economic costs.
    None of what I have described above will come as a surprise to our 
partners in the region--these leaders have used some of the same 
language to describe and acknowledge the challenges they are facing. 
And they are acting on it. The leaders of these nations are already 
working to beat back violence and crime for their citizens and they 
have turned to us to join them--as partners.
    In Mexico, President Calderon has acted decisively, using the most 
effective tools at his disposal. He is reorganizing the Federal police, 
putting new and additional resources in the hands of his security 
services, deploying military units to support police operations, 
rooting out corrupt officials, attacking impunity, arresting major 
crime figures, and extraditing a record number of drug kingpins and 
other criminals to the United States. The determination and commitment 
shown by the Calderon administration is historic; and the early results 
impressive. In the course of 1 month, two seizures alone have netted 
over 30 tons of cocaine destined for Mexico and/or the United States, 
shattering all previous records for drug seizures in Mexico. In fact, 
our understanding is that Mexico has confiscated more cocaine in the 
first year of the Calderon administration than any other since they 
began keeping records.
    However, President Calderon has recognized that leadership and 
political will are not enough; he needs greater institutional and 
material resources to ensure both near-term success and long-term 
institutional change. In an unprecedented step, he has asked the United 
States to launch a new partnership with Mexico and to help him 
strengthen Mexican law enforcement, public safety, and border security 
to defeat the drug and criminal organizations. This is not a 
``traditional'' foreign assistance request. It is, as our joint 
declaration called it, ``a new paradigm for security cooperation.''
    At the same time, the nations of Central America have committed to 
collective action to address these common security concerns. Through 
the Central American Integration System (SICA), the governments have 
expressed the political resolve to join forces to strengthen regional 
security; however they lack sufficient tools and capacity to execute 
such will. Despite these challenges, national authorities remain 
committed to the fight; using their own limited resources and equipment 
to interdict narcotics, arrest drug cartel members, and extradite high-
profile drug traffickers to the United States for prosecution. The 
countries of Central America are also committed to working among 
themselves as well as with the United States. In March, the Government 
of Panama, working with DEA and Coast Guard, seized a record 17 metric 
tons of cocaine. And just last week, in a combined operation involving 
U.S. law enforcement and the National Police of both Nicaragua and 
Costa Rica, 250 kilograms of cocaine were confiscated in Nicaragua. 
These examples demonstrate that in Central America, as in Mexico, there 
are courageous partners with whom we can work cooperatively.
    The impetus for the Merida Initiative came out of the President's 
March trip to the region; particularly his visits to Guatemala and 
Mexico, where security concerns dominated the conversations with 
President Berger and President Calderon. In the course of these 
discussions and the follow-on consultations with both Mexico and 
Central America, we have been able to develop the framework of a new 
regional security partnership.
    Throughout this process, we have tried to shape the Merida 
Initiative to be comprehensive, balanced, and timely. The initiative is 
comprehensive in that it deals with security in all its components and 
builds on a variety of initiatives that are taking place now in the 
United States, Mexico, and Central America. Combined with the push we 
have made against drug trafficking and the flow of other illicit goods 
elsewhere in the region, the Merida Initiative represents an effort to 
integrate security programs from the Andes, through the isthmus of 
Central America and into Mexico, up to the Southwest border of the 
United States. This is a hemispheric assault to cripple drug 
trafficking and criminal organizations, disrupt and dismantle their 
networks, and help fortify state institutions to ensure these groups 
can no longer operate effectively.
    The initiative is balanced because it involves a range of security 
institutions in Mexico and Central America, with a particular focus on 
building capacity and capability in civilian sectors. The entire 
Central America portion of the supplemental request and nearly 60 
percent of the Mexico portion is going to civilian agencies in those 
countries. Our goal in balancing the package is to assist Mexico and 
Central America in their immediate fight against organized crime, to 
improve connectivity and communications among the various law 
enforcement agencies, and to support the institutional reform necessary 
to fortify the state institutions of justice and rule of law that are 
essential for the long-term protection of civil and human rights.
    Finally, the Merida Initiative is timely because it responds to a 
real-time threat, as organized crime attempts to overwhelm the 
stability and well-being of democratic States in Mexico and in Central 
America. Our allies in this region have already begun to act and have 
called on us to assist them as quickly as possible. The urgency of 
their appeal is palpable, and we should not miss the opportunity to 
capitalize on the successes we have witnessed so far, as well as to 
forge a stronger alliance with willing partners.
    Just as our partners in the region acknowledge the extent of the 
threat, President Bush has accepted that the U.S. shares responsibility 
and is prepared to step up to do our part. This request reflects how 
the United States would like to work with the Governments of Mexico and 
Central America through the use of foreign assistance funds. And I have 
already spoken to the increased efforts by which these governments have 
begun the fight themselves. What is not captured in this supplemental 
request is what the United States is doing domestically to contribute 
to this partnership.
    While I defer to U.S. domestic law enforcement agencies to provide 
you details, I can tell you that the Merida Initiative was designed to 
complement what the United States has been doing on our side of the 
border to address issues such as arms and bulk cash trafficking, gangs, 
and demand for drugs. Through a number of domestic strategies and 
programs--such as the Southwest Border Counter-
Narcotics Strategy, the National Drug Control Strategy, and the U.S 
Strategy for Combating Criminal Gangs from Central America and Mexico--
we are working domestically to enhance our efforts against the 
trafficking of drugs, arms, money, and humans, as well as to reduce the 
demand for drugs within the United States.
    However, each nation working on its own is not enough. As President 
Bush has stated, regional problems require regional solutions. The 
Merida Initiative is where each nation's domestic efforts are combined 
with regional cooperation and collaboration to multiply the effects of 
our actions. It clearly shows we realize that drug trafficking and 
criminal organizations do not respect political boundaries and that we 
must synchronize our tactics and confront the problem together.
    This new paradigm is not without its challenges, but we believe 
they are challenges that can be overcome. Oversight and accountability 
are essential in this process and we have structured the package in 
such as way as to assure this. We also plan to build on the efforts of 
the Governments of Mexico and Central America in protecting human 
rights and rooting out corruption; all participants agree that these 
are indispensable components of any security cooperation partnership.
    Having visited Mexico with Deputy Secretary Negroponte 2 weeks ago, 
and having led the U.S. delegation to the first U.S.-SICA Dialogue on 
Security in Guatemala in July, I can tell you that I am struck by the 
immediacy of the threat. Equally, I have been impressed by the 
commitment of the governments involved to work together to finally put 
an end to the growing violence and crime.
    The President's vision for this hemisphere is rooted in 
partnership; the type of partnership that the Merida Initiative 
represents. He has stressed that all in the region, including the 
United States, have a shared responsibility for combating this crime 
and violence that so gravely affect our citizens. We have far-reaching 
geographic, economic, and demographic links to Mexico and Central 
America and a compelling national security interest in helping the 
governments of this region succeed in the battle against crime and 
insecurity. We believe the Merida Initiative represents the best hope 
for tackling the problem in a thorough manner with our willing 
partners.

    Senator Menendez. Thank you.
    Secretary Johnson.

STATEMENT OF HON. DAVID JOHNSON, ASSISTANT SECRETARY, BUREAU OF 
INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT AFFAIRS, DEPARTMENT 
                    OF STATE, WASHINGTON, DC

    Mr. Johnson. Thank you, Mr. Chairman. Mr. Chairman----
    Senator Menendez. Would you put your microphone on?
    Mr. Johnson. Thank you, Mr. Chairman. Mr. Chairman, Senator 
Lugar, Senator Boxer, Senator Isakson, thank you for the 
opportunity to discuss the Merida Initiative to confront 
narcotics trafficking in Mexico and Central America.
    I've submitted a written statement for the record, which I 
will summarize briefly. As Assistant Secretary Shannon noted, 
Mexico and Central America have already made considerable 
progress against criminal networks, and have shown an 
unprecedented willingness to work together to address these 
threats. We're beginning to see some positive signs that these 
efforts, together with successful counterdrug programs in the 
Andean source zone, may be having a measurable impact on the 
availability of drugs here in the United States. Clearly, this 
is a compelling moment of opportunity further to advance our 
common national security interests.
    Through bilateral and multilateral initiatives, the 
Governments of Mexico and Central America are demonstrating 
unprecedented will to work with us and each other to address 
these issues. This is a compelling opportunity to advance our 
common national security interests.
    U.S. support through the Merida Initiative will focus on 
three broad areas. First, counternarcotics, counterterrorism, 
and border security. Second, public security and law 
enforcement. And third, institution-building and rule of law.
    The primary goal is to diminish the power and impunity of 
criminal organizations by strengthening border controls, 
enhancing law enforcement capacity, and improving justice and 
correction systems. Of the $550 million included in the 
supplemental request, $500 million would support reinvigorated 
cooperation with Mexico.
    As Senator Lugar noted, approximately 90 percent of the 
cocaine bound for the United States transits Mexico and Mexico 
is the principal foreign source for methamphetamine and 
marijuana consumed in the United States.
    Drug-related violence has spread to all parts of Mexico and 
into the United States. Through this initiative, U.S. 
assistance will seek to build upon existing programs in the 
areas of border security, interdiction, and criminal justice 
reform.
    For example, supplemental funding would provide specialized 
inspection equipment and canine teams, communications 
technology, and aircraft to support interdiction activities. 
Our assistance would also provide technical assistance in areas 
such as vetting of Mexico's newly established Federal police 
force, case management software, and the establishment of 
witness protection programs.
    We also plan to enhance information-sharing, related to 
terrorist travel, through the advanced passenger information 
system. The proposal also seeks to address money laundering and 
drug demand in the region. In Central America, programs will be 
tailored to the needs of individual countries in areas such as 
criminal gang activity and small arms trafficking.
    The Merida Initiative represents a rare, perhaps even a 
unique opportunity to address security concerns in our 
hemisphere. But we also recognize that it requires a 
significant investment on the part of the American taxpayer. 
Proper financial management of a program of this size and scope 
is a significant challenge. Should Congress approve funding for 
this worthwhile initiative, my top priority will be to ensure 
that effective financial controls are in place, and that we 
have the staffing necessary for effective oversight.
    Like our other counterdrug and law enforcement programs, 
funding would be obligated through bilateral letters of 
agreement and include safeguards, such as end-use monitoring 
for equipment and screening of trainees.
    Mr. Chairman, in response to the concerns that you and 
others have expressed, concerning the lack of prior 
consultations, I regret that we did not provide you with more 
detailed information earlier. We have now sought to provide 
Congress with this credible and as defensible proposal as 
possible, and the process of validating requirements took 
longer than we wished. We look forward to continued dialog with 
you to shape this proposal into a plan that is in the best 
interest of the United States, Mexico, and Central America.
    Again, thank you for the opportunity to appear here today. 
I look forward to working with you on these important issues, I 
look forward to your questions.
    Thank you.
    [The prepared statement of Mr. Johnson follows:]

  Prepared Statement of Hon. David T. Johnson, Assistant Secretary of 
State, Bureau for International Narcotics and Law Enforcement Affairs, 
                  Department of State, Washington, DC

    Mr. Chairman, Senator Lugar, other members of the committee, thank 
you for the opportunity to discuss the Merida Initiative to confront 
transnational narcotics trafficking and organized crime in Mexico and 
Central America.
    As Assistant Secretary Tom Shannon explained, our partners in 
Mexico and Central America have already made considerable progress in 
their own efforts to fight these transnational organized criminal 
networks, and they would like our help to do more. Through bilateral 
and multilateral initiatives, the Governments of Mexico and Central 
America are demonstrating unprecedented will to work with us and each 
other to address these issues. This is a compelling opportunity to 
advance our common national security interests.
    Roughly 90 percent of all the cocaine consumed in the United States 
transits Mexico. The country is also the largest foreign supplier of 
marijuana and the largest foreign source of methamphetamine consumed in 
the United States. Central American officials have identified gangs, 
drug trafficking, and trafficking of arms as the most pressing security 
concerns in that region. The Merida Initiative will respond to those 
security threats and build on existing strategies and programs. We are 
confronting vulnerabilities posed from the increasingly violent nature 
of the security situation in Mexico and Central America that if left 
unchecked, could open the way for more dangerous threats to emerge.
    Through the Merida Initiative, the United States seeks to 
strengthen our partners' capacities in three broad areas: (1) Counter-
Narcotics, Counterterrorism, and Border Security; (2) Public Security 
and Law Enforcement; and (3) Institution Building and Rule of Law. 
Through this cooperative effort, we intend to achieve the following 
strategic goals: Break the power and impunity of criminal 
organizations; strengthen border, air, and maritime controls from the 
Southwest border of the United States to Panama; improve the capacity 
of justice systems in the region to conduct investigations and 
prosecutions, consolidate the rule of law, protect human rights, and 
reform prison management; curtail criminal gang activity; and reduce 
the demand for drugs throughout the region.
    This cooperation is designed to build on activities already 
underway in the region. For example, Mexico is undertaking historic 
efforts to improve coordination among security agencies, modernize law 
enforcement agencies and professionalize their staff. Since his 
inauguration in December 2006, President Calderon has taken decisive 
action against transnational criminal organizations by deploying 24,000 
troops to support joint police-military counternarcotics operations in 
10 Mexican States, increasing extraditions, and initiating large scale 
police reform.
    The results of these efforts are striking. The Calderon 
administration has extradited a record 79 fugitives to the United 
States this year, including prominent members of the gulf drug 
trafficking organization. Mexican law enforcement authorities have 
seized over $200 million in cash from a methamphetamine trafficking 
organization, and have seized record amounts of narcotics. Seizures of 
cocaine, marijuana, opium gum, heroin, and methamphetamine are on pace 
to exceed last year's totals. As noted by Assistant Secretary Shannon, 
cocaine seizures in recent weeks have shattered all previous records in 
Mexico. We are also beginning to see encouraging signs that these 
achievements, together with successful programs in the Andean source 
zone, may be having a measurable impact on the availability of cocaine 
here in the United States.
    Mexico has also made great strides in its efforts to root out 
official corruption. Since coming into power, the Calderon 
administration has conducted thousands of inquiries and investigations 
into possible malfeasance or misconduct. These investigations resulted 
in the dismissal of over 1,600 employees, the suspension of nearly 
2,000, as well as thousands of reprimands. The imposition of economic 
sanctions against corrupt Federal employees brought the equivalent of 
over $300 million in fines and reimbursements into the Mexican 
treasury.
    Existing U.S. programs complement and support the historic 
counternarcotics efforts of the Calderon administration. For example, 
we are conducting programs supporting professionalization and justice 
system restructuring. These efforts include training and other support 
to police reform, and development of Federal police institutions and 
infrastructure. These programs support the vetting of Mexican law 
enforcement agents and assist State and Federal police and prosecutors. 
We provided training for 4,627 Government of Mexico officials in 2007, 
and have plans to train about 5,800 in 2008. Our Good Governance 
programs support rule of law education programs and promote 
anticorruption initiatives within the Mexican Federal bureaucracy.
    Looking into the future, the Merida Initiative, if approved, will 
include various efforts to improve crime prevention, modernize the 
Mexican police force, and provide institution-building and the rule of 
law. Case management software, technical assistance programs, and 
equipment will support Mexico's judicial and police reforms by 
enhancing their ability to investigate, convict, sentence, and securely 
detain those who commit crimes. Technical assistance and training 
programs will support Mexico's development of offices of professional 
responsibility, inspectors general, and new institutions designed to 
receive and act on citizen complaints. Increased training for 
prosecutors, defenders, and court managers in Central America, will 
assist with judicial reform. The initiative will expand needed 
technical assistance on prison management and aid in severing the 
connection between incarcerated criminals and their criminal 
organizations.
    One of our existing programs supports antimoney laundering efforts 
by the Government of Mexico, by assisting the Government's Financial 
Intelligence Unit (FIU) and by supporting police and prosecutors who 
investigate money laundering-related crimes. As part of the Merida 
Initiative, we plan to support the FIU through the expansion of 
software for data management and data analysis associated with 
financial intelligence functions and law enforcement.
    Nearly half of our current programs focus on interdiction, 
including support for the Mexican counterparts of our Federal law 
enforcement agencies. To further advance this cooperation, funding 
under the Merida Initiative focuses support for a Consolidated Crime 
Information System; purchasing special investigative equipment, 
vehicles and computers for the new Federal Police Corps; creating 
special police units to focus on high-profile criminal targets and 
deploy at major airports and seaports; assessing security and 
installing equipment at Mexico's largest seaports; and procuring 
additional clandestine laboratory vehicles and safety gear to assist 
the Government of Mexico in combating methamphetamine. This program 
includes specialized equipment and training to safely and effectively 
dismantle methamphetamine super labs.
    Our existing programs focus on border security by principally 
providing inspection equipment and associated tactical training to 
support inspection capabilities of police, customs, and immigration. 
Funds also provide equipment and specially trained canine teams to 
pursue arms trafficking and explosives. Through linkages with the USG's 
Advanced Passenger Information System, we also facilitate the real-time 
interchange of information related to potential counterterrorism 
targets.
    The Merida Initiative includes several programs to support 
interdiction and border security efforts such as information technology 
support that will assist Mexico's Federal migration authorities improve 
their database and document verification capabilities. Additional 
communications equipment will improve their ability to conduct rescue 
and patrol operations along Mexico's southern border. Equipment for a 
secure communications network, data management, and forensic analysis 
will strengthen coordination among Mexican law enforcement agencies and 
greatly enhance Mexico's ability to prosecute narcotrafficking and 
other transborder crimes. Technologies such as gamma-ray scanners, 
density measurement devices, and commodity testing kits will help 
prevent the cross-border movement of illicit drugs, firearms, financial 
assets, and trafficked persons. Expansion of weapons tracing programs 
will enable increased joint and individual country investigations and 
prosecutions of illegal arms trafficking. Enhanced information systems 
in Mexico will strengthen analytical capabilities and interconnectivity 
across law enforcement agencies and improve information-sharing with 
U.S. counterparts. Additional transport and light aircraft in Mexico 
will give security agencies the capability to rapidly reinforce law 
enforcement operations nationwide.
    In Central America, maritime assistance and both fixed and mobile 
nonintrusive inspection assistance, will allow regional migration 
officials to better defend national sovereignty from land and sea 
incursions by illegal traffickers. In addition, technical assistance, 
training, and nonlethal equipment will improve policing and promote 
preventative and community policing. Specialized antigang units in El 
Salvador, Honduras, and Guatemala will also improve investigation and 
prosecution of dangerous gang members in the United States, Central 
America, and Mexico. Moreover, the Merida Initiative will provide 
funding to implement all five elements of the U.S. Strategy to Combat 
Criminal Gangs, including improved processes for repatriation and 
strong community action programs to prevent youth from joining gangs. 
We will also begin a focused program to address illicit trafficking of 
small arms and light weapons throughout the region by providing a 
regional adviser, training and stockpile management and destruction 
assistance.
    Finally, an existing U.S. program supports demand-reduction efforts 
by Mexican governmental and nongovernmental entities that pursue drug 
remediation, rehabilitation, and public awareness activities. The 
Merida Initiative will build significantly on these small programs by 
providing technological support to the Mexican National Network for 
Technological Transfers in Addictions, which will improve its ability 
to deliver drug treatment and prevention services across Mexico.
    The Merida Initiative will be implemented through bilateral Letters 
of Agreement with the host governments that will include provision for 
end-use monitoring. We will work with the interagency to identify 
implementers for the various programs under the Merida Initiative, 
building on the results of interagency validation teams that verified 
the proposals in consultation with Mexican and Central American 
government agencies, and by expanding ongoing interagency cooperative 
relationships at the various embassies and consulates in the region.

    Senator Menendez. Thank you both.
    We'll start the questioning with 7-minute rounds and since 
this is the only panel that we have on the issue, we'll 
probably go through a second round again. And the Chair will 
recognize himself to start off with.
    Mr. Secretary, you've cited a series of things. I want to 
ask you, very briefly tell me, a, b, c, this is what we're 
going to accomplish with this initiative. What is your 
strategic objective, a, b, c? If there's an a, b, and c, there 
might be only a, but whatever.
    Mr. Johnson. The strategic objectives are several-fold. 
First, in Mexico and Central America: Work with our partners to 
fight organized crime and drug cartels. This means ending the 
ability of organized crime to threaten the democratic States of 
Mexico and Central America. This is why we believe it's an 
emergency today. We believe these organized crime institutions 
are indeed threatening the democratic States of Mexico and 
Central America.
    Second, in the process of breaking down organized crime 
groups and cartels, reduce the flow of narcotics to the United 
States, and look for ways to ensure that as we reduce that flow 
of narcotics, it does not move elsewhere in the region. This is 
why we have Central America as part of this package. In order 
to address a regional approach, and it's why we are beginning a 
deeper conversation on security with our Caribbean partners.
    Third, build new and enduring relationships with law 
enforcement institutions in the region, especially in Mexico 
and Central America. We have been approached by the Mexicans 
and by the Governments of Central America in an unprecedented 
fashion. We believe this is an opportunity to break down 
longstanding taboos in our national relationships and build new 
levels of cooperation that will not only enhance security 
cooperation, but will enhance broader political and diplomatic 
cooperation throughout the region.
    Senator Menendez. Well, if part of what we are trying to do 
is stop the flow of narcotics into the United States and to 
deal with the drug cartels, why do we not deal with the fact 
that, in this initiative, with the report, Secretary Johnson, 
that was issued by your Bureau in March of this year, that 
Mexico supplies a large share of the heroin distributed in the 
United States. It is the largest foreign supplier of marijuana 
to the United States market, and a major supplier and producer 
of methamphetamine. And the World Drug Report of 2007, from the 
U.N. Office on Drugs and Crime, estimates that Mexico is one of 
the top two marijuana producers of the world.
    And there's other information about how Mexico is now 
facing a consumption issue, as well. So we have a huge 
production part, forgetting about the transiting of drugs 
through Mexico from other places. We have a huge production of 
some of these issues within Mexico itself. Nothing, nothing, in 
this initiative is going to deal with that. Is that correct?
    Mr. Johnson. I'd say, on the contrary. Unlike----
    Senator Menendez. What exactly are you going to do as it 
relates to production?
    Mr. Johnson. The effort here is focused not on eradication, 
as you recognize, but is focused on interdiction. And it is 
focused on confronting the organized criminal networks, which 
are multifaceted in nature, in the sense that their products 
are across the board.
    So, by confronting these--these criminal networks, I think 
we do make the best investment of the taxpayers money to deal 
with all of these questions of illicit product, illicit 
narcotics that are destined for the United States, as well as 
transiting Mexico.
    Senator Menendez. But I listened to both your testimonies 
and looked at your backup offerings that you've given the 
committee and members. You talk a lot about the violence, which 
of course is a real concern. Certainly if we arm the military, 
giving 40 percent of this initiative to the military, there 
will be a reduction of violence, but we will not get to the 
core issues of production and we will not get to the core 
issues of consumption. These cartels are very strategic, so we 
move the problem out of Mexico and we move it, maybe, to the 
Caribbean.
    I mean, I don't understand how we can take a one-faceted 
approach to a multifaceted problem.
    Mr. Johnson. I don't think this is a single-faceted 
approach. A significant portion of the monetary investment, 
because of the expensive aircraft, is dedicated to acquisition 
of both helicopters and fixed-wing aircraft. So in terms of the 
proportion, that is a significant part, but those are expensive 
things to do. But there is, within this proposal, demand 
reduction, programs for the rule of law, programs to support 
the vetting of the entire Mexican national police force of 
approximately 35,000 individuals.
    So, I think there is--there is a comprehensive approach 
here, one that seeks to get at the threat to the Mexican State 
that comes from organized crime and the----
    Senator Menendez. Can you point out, to the demand 
reduction part of this package?
    Mr. Johnson. I believe it is about $7 million.
    Senator Menendez. And what is the intention of the demand 
reduction?
    Mr. Johnson. The intent would be to assist the Mexican 
Government in its own ongoing programs, providing it with 
expertise that we've generated here in the United States, in 
order for them to help deal with the same type of challenge 
that we face.
    Senator Menendez. So they will have a better demand 
reduction than we've had here in the United States?
    Mr. Johnson. Well, I think that we would like to provide 
them with some of the expertise that we've developed.
    Senator Menendez. I hope we get better expertise than that.
    Let me ask you, Mr. Secretary, How much money, and are you 
going to cut any aid to the rest of Latin America as a result 
of it?
    Mr. Shannon. Right now we're envisioning a 3-year program 
for Mexico of $1.4 billion. We have a $50 million request for 
Central America. We will have further discussions with Central 
America to determine what else we will be able to fund in 
Central America, as we take a deeper look at the security 
strategy that their heads of state are about to approve.
    This is a supplemental request now. It will not affect 
fiscal year 2008 levels. We are in discussion on fiscal year 
2009. We understand and share your concern about our larger 
effort to promote investment broadly in our interests in Latin 
America, and it is not our intention to have this program 
reduce our social spending in Latin America.
    Senator Menendez. It is not your intention. That's a 
diplomatic word----
    Mr. Shannon. Well, it's----
    Senator Menendez [continuing]. Phrasing, not your 
intention. The question is, Can the administration say to this 
committee, that the resources it seeks for this initiative, 
will not come out of already-cut development assistance to this 
hemisphere?
    Mr. Shannon. We're in the process of preparing the 2009 
budget to present to the Congress.
    Senator Menendez. So you cannot tell us that at this point?
    Mr. Shannon. So, until that budget is complete, I cannot 
give you final figures, but I----
    Senator Menendez. Do you intend to continue to ask for the 
other parts of this as emergency supplementals as well, or do 
you intend to work that within the budget for the next 2 years 
that you project?
    Mr. Shannon. Our intention is to work within the budget.
    Senator Menendez. Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Certainly, if the figure often utilized now, that 90 
percent of the cocaine trade that enters the United States 
comes through Mexico, one point of oversight that we might be 
able to exercise in the committee, with your help, is to try to 
devise what metrics that are available for measuring progress 
of the Merida Initiative. In other words, can we suggest that 
during the coming year, we would note a decrease of the amount 
of cocaine coming from Mexico or for that matter, if 90 percent 
is coming through Mexico now from anywhere else? And if so, 
obviously this is of consequence to the American people.
    The cost of cocaine usage and trade in our country is very, 
very considerable. And therefore, a $500 million investment on 
this basis alone might be shown to have good returns. But how 
would be able to gauge that? Have you thought about the metrics 
of measuring our progress here?
    Mr. Johnson. I think the two easiest to count, but perhaps 
the, somewhat misleading ones, would be to count increases in 
successful extradition requests and in seizures. But I think 
that only gets to the part that is most easily divided into 
numbers. What we're aiming for here, is a reduction that is 
difficult to quantify, and the threat to the Mexican State that 
comes from organized crime. And ultimately, it will be in the 
form of significantly reduced violence among those individuals, 
or among those groups that affects our own border.
    But, I think it's going to be difficult to quantify that in 
the same way that you would count the other issues.
    Senator Lugar. I'm sure it would be, but at the same time, 
this is being billed as an eradication of a drug issue, and I 
don't deny the consequences of having greater stability in 
Mexico, and the initiative the Mexicans have taken, to want to 
work with us more cooperatively. But I--it just appears to me 
and may, if you haven't worked this out thus far with the 
Mexicans or ourselves, perhaps this is an invitation to do so.
    I think this is a way of making an impact in terms of 
public opinion, which is significant. As you say, you might 
make a judgment as to whether the Government in Mexico is more 
stable or not, but the current government really wants to take 
constructive action, is why the President of the country has 
approached you. So, please take a look at that if you will.
    Let me just ask about the Central Americans. At least we've 
had some conversation with Central American officials who feel 
that this might be effective as a matter of fact, so effective 
that the traffic would move in their direction. Now, some would 
say it's already coming through many of their countries, but 
what they're talking about literally, is that the organized 
criminals or those doing vast amounts of cocaine traffic, would 
find some new nexus for their activities. And therefore, they 
would say, take hold of this.
    Now, you're spending $500 million on Mexico, albeit in a 
broad gamut of activities you've mentioned, and $50 million for 
us. But if, in fact, your $500 million is effective, we may be 
overrun by your success there. Have you had conversations with 
Central Americans along those lines, and what has been their 
testimony to you?
    Mr. Shannon. Yes; we have. In fact, we're involved in quite 
extensive discussions with Central America. Effectively the 
Mexico program and the Central American programs are running 
along parallel tracks, but they're operating at different 
speeds. One, because with Mexico we're dealing with a single 
country, in Central America we're dealing with many.
    And what we've been doing with the Central Americans is 
working through the Central American Integration System, SICA, 
in order to construct a broader regional security dialog. This 
has taken place. It's the first time in recent Central American 
history that the Central American civilian security agencies 
have met at ministerial level, have identified security 
priorities, met with the United States in a security dialog--
which took place in July, and I led our delegation to that 
dialog--established broad priorities for security strategy for 
fighting organized crime and drug trafficking, fighting weapons 
trafficking, and fighting gangs--and then began to work with 
their security ministry to develop a larger Central American 
security strategy.
    They have done that, it has been approved at a ministerial 
level, it will be approved by the Central American Presidents 
on December 12. Following that approval, we will then begin the 
technical discussions with Central Americans, similar to what 
we had with the Mexicans. And, we see the initial $50 million 
in this supplemental request as an important component in 
building off this regional cooperation, linking law enforcement 
and intelligence agencies to better understand the flow of 
organized crime in the region, and building some communications 
and interoperability among the Central American countries.
    It's our hope that as we deepen these discussions, we will 
understand better where else we can provide assistance.
    Senator Lugar. So in years 2 and 3, based on this December 
conference and others, you might have a different type of 
request for moneys or for assistance for those Central American 
countries?
    Mr. Shannon. This is our hope. We believe this will be 
necessary, sir.
    Senator Lugar. Now, can you make a comment--in my opening 
statement, I touched upon a common lament of Mexican officials, 
as that is, they say drugs may be flowing through our country 
from Central America or from wherever, but on the other hand, 
arms are flowing from you folks in the United States into 
Mexico. The very instability that you decry, may be caused by 
whatever you are unable to control. What are we doing with 
regard to that? It may or may not be a part of this program, 
but I think you've intimated it is, because you're talking 
about security of the Mexican State?
    Mr. Johnson. Senator, if I could respond to that. It is 
outside the scope of this request, because it's, in fact, a 
domestic expenditure, but we're under discussions with Treasury 
and with Justice's Alcohol, Tobacco, and Firearms Bureau, about 
the moneys that might be necessary to improve their registry 
program to take better account of Hispanic name conventions, so 
that we can more easily exchange data with the Mexican 
authorities and seek to curb the flow of arms from the United 
States into Mexico.
    Senator Lugar. Perhaps we can have some metrics on that in 
due course, too. It would be reassuring, at least, to Mexicans 
who want more cooperation with us.
    Mr. Shannon. Senator, if I may. As Assistant Secretary 
Johnson noted, we are very focused on working with the Mexicans 
on the issue of weapons trafficking. Part of our national 
Southwestern border strategy focuses on weapons trafficking 
into Mexico.
    And as noted, we hope to be able to share information with 
the Mexicans that will allow us to identify where these weapons 
are coming from in the United States, as the Mexicans interdict 
them. And since improving interdiction is part of the broader 
initiative, we believe that as the Mexicans improve their 
interdiction capabilities along the northern border, they will 
be capturing more weapons shipments. We will be able to use 
serial numbers to identify where those weapons come from, and 
this will allow us to do the necessary prosecutions here.
    Senator Lugar. Thank you.
    Thank you, Mr. Chairman.
    Senator Menendez. Thank you, Senator Lugar.
    It's interesting that while we're going to spend maybe $1.5 
billion, with part of it being gun trafficking from the United 
States to Mexico, we have prohibitions against gun tracing. 
Ironic, isn't it.
    Senator Boxer.
    Senator Boxer. Lots of irony.
    As we bleed red ink here in this country, I want to ask you 
again, how much is this emergency request?
    Mr. Shannon. The entire request is $550 million.
    Senator Boxer. And how are you paying for it?
    Mr. Shannon. Through the supplemental request.
    Senator Boxer. Well, how is that paid for? Just tell the 
truth to the American people; what does that mean?
    Mr. Shannon. Well, it's money appropriated and authorized 
by the Congress.
    Senator Boxer. Yeah; go on. And how is it paid for? It's 
asked for in emergency supplemental.
    Mr. Shannon. Correct.
    Senator Boxer. Is there an offset to pay for it? And are 
you asking that we cut something else to pay for this?
    Mr. Shannon. No, ma'am.
    Senator Boxer. Why not?
    Mr. Shannon. Well----
    Senator Boxer. Why not?
    Mr. Shannon. Ma'am, I regret that--that I'm not from the 
Office of Management and Budget, so I can't talk about the 
broader----
    Senator Boxer. OK, well let me say----
    Mr. Shannon [continuing]. Possibility.
    Senator Boxer [continuing]. I think everybody has, in my 
opinion, should feel a responsibility to pay for something they 
want. This is going downhill quickly. We are in debt, debt, 
debt, all on the backs of our kids. And listen, I want to stop 
this drug abuse in our country. I've had treatment on demand 
forever. I voted for every dollar to send more Border Patrol to 
stop crime at the border. The U.S. attorneys in San Diego, at 
my request, are focusing on these problems. And I would say, if 
this was adding to the Border Patrol, how many more Border 
Patrol do we put on in this, on our side of the border, in this 
proposal?
    Mr. Shannon. Ma'am, this is a foreign assistance proposal, 
so the moneys can only be spent as part of the foreign 
assistance budget----
    Senator Boxer. OK.
    Mr. Shannon [continuing]. So they won't be putting more 
Border Patrol.
    Senator Boxer. No more Border Patrol. OK. Because Senator 
Isakson mentioned that, I wanted to make that clear. Because 
any day of the week I'd vote to put more Border Patrol on our 
side, focusing on the drugs and the crime, because that's what 
we really want to get at, at the border.
    You know, I don't know if you saw this article, ``How Hard 
is Mexico Fighting Drugs,'' in Time Magazine, Friday, November 
9. So it's pretty new. And I'll just read from this if I can, 
Mr. Chairman.
    ``Every time Mexico wants U.S. helicopters, mountains of 
methamphetamine suddenly get intercepted on their way to the 
border. The problem is, once Mexico wins the prize, a lot of 
its law enforcement usually repays the favor by joining up 
again with the country's drug cartels. That was the case a 
decade ago, when Washington agreed to begin sharing important 
antidrug intelligence with Mexico. And no less than Mexico's 
drug czar--the drug czar in Mexico, Army General Jesus 
Gutierrez Ribollo--was discovered to be in the pocket of 
Mexico's major drug lord.''
    We've seen this movie before. It's gotten to be almost a 
ritual. Now what protections do you have against corruption?
    Mr. Johnson. I think the major one we are seeking through 
this program is two-fold. One is to provide assistance to the 
Mexican authorities through both training and other assistance, 
so that they can investigate, provide polygraph testing to 
their entire new Federal police service.
    In addition to that, DEA and the Immigration Customs 
Enforcement Office are, or have already created and will create 
additional, what they call vetted units, individuals that are 
organized into groups, with whom they work, that they have 
conducted background investigations on, that they have 
conducted polygraph tests on, and they can be as sure as one 
can be that they are individuals in groups with whom they can 
work and share information.
    Senator Boxer. So this pattern doesn't disturb you, this 
past pattern, that's described in this particular article? Does 
it disturb you?
    Mr. Johnson. Well, that's at least part of the motivation 
for, throughout the world, when we're working on these types of 
programs, to take steps, as I described, to avoid compromise.
    Senator Boxer. Yeah; because you know what, I like to be 
Uncle Sam, I don't like to be Uncle Sucker. I don't like to see 
taxpayers, in this case, our grandkids have to pay for this 
program, because you admit you're not--you're not paying for 
it, that's not your suggestion. And yet, we've seen in the past 
when we give them assistance what has happened. So, I'm going 
to hold you to that if this goes forward.
    Now, I talked before about supply and demand. And if no one 
here wanted drugs, what a beautiful world it would be, huh? And 
so, I wonder whether you know what the administration's 
proposed budget is this year on antidrug spending in America--
in America--to help our people get off drugs and to keep them 
off drugs. Do you know? Are you aware of it?
    Mr. Johnson. It's outside the scope of my work, but I 
understand that it's $4.6 billion to a variety of Federal 
prevention and treatment initiatives.
    Senator Boxer. OK, well let's just say it's a $166.7 
million decline from 2007 spending levels. It cuts prevention 
spending, while continuing to increase funding for overseas and 
interdiction. This is an outrage. You know, I think we should 
take care of our youngsters over here and give them some help, 
then talk to me about giving, you know, $1.4 billion to another 
country. Cutting--cutting prevention here, it's very bizarre. 
We've got to do both, we've got to do both, because it's supply 
and demand.
    I would just say, Mr. Chairman, California has a lot at 
stake here, and I want to see improvement here, but I don't 
like to see good California taxpayers and American taxpayers, 
whether from Georgia or Indiana or New Jersey or anywhere else, 
paying money and then finding out the people we were dealing 
with turn around and play footsy with the drug lords. And I 
think it's really important that we know what we're doing, and 
that's why the point about consultation, is not just an 
afterthought. A lot of us care a lot about this.
    And I know the President had a press release and said he 
wanted to help and we're all--we want to help Mexico. Mexico's 
our neighbor, Mexico's our friend, and when Mexico doesn't do 
well, it certainly hurts--hurts my State. It hurts my State a 
lot. So, I want to--I want to be helpful here.
    My last question in the last couple of seconds has to do 
with extradited fugitives. In your opening statement, Secretary 
Johnson, you state that the Calderon administration has 
extradited a record 79 fugitives. And this is a positive 
development.
    I was involved in one of those cases, one of those 
fugitives was Jorge Arroyo-Garcia, a drug dealer who killed a 
California Sheriff's deputy in 2002. And I've been working with 
the widow to get him extradited. Now, he finally was handed 
over in 2007, was a very, very difficult time for the widow. 
She was frustrated and angry, he was allowed to hide in Mexico 
for years. And after all of our work together, we--we wound up 
seeing Garcia sentenced to life without parole for the brutal 
murder, which is a very positive thing. And the reason he was 
finally arrested and extradited, was because the Mexican 
Supreme Court ruled that life sentences without the possibility 
of parole were constitutional.
    Should this initiative be conditioned on the continued 
cooperation of Mexican authorities to extradite wanted 
criminals like Garcia? Because I can tell you, it would be a 
nonstarter for me if we didn't make that part of this, because 
we had to fight too, too long to make sure this murderer went 
to prison.
    So, have you thought about a condition such as that, 
continued cooperation on the extradition of wanted criminals 
like Garcia?
    Mr. Johnson. As far as I am personally aware, we have not 
had a discussion with the Government of Mexico on 
conditionality with that respect. We have, though, had the 
experience of continued improvement in the extradition 
relationship over the course of the last several years. That 
has been quite pleasing, not just in this case, but across the 
board.
    Senator Boxer. Well, if it's quite pleasing, we ought to 
make it part of this deal, because I can tell you, it wasn't 
quite pleasing to work with this widow for 3 years and see her 
pain at the fact that this guy was running around. So, I would, 
again, consultation, that's an issue I would have raised, and 
we are going to have it raised later.
    Thank you.
    Senator Menendez. Thank you.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    And thank both of you for your service. I appreciate you 
coming before us today. Secretary Shannon, you talked about, in 
your prepared comments, that 60 percent of the money that is 
going to Mexico is going to civilian organizations. And I know 
that there's been some discussion about our oversight of you, 
and I don't know if we've touched on this or not--I stepped out 
for one moment--but how are you all going to conduct oversight 
of these civilian organizations? And then, on issues of 
sovereignty or conflict, explain to us a little bit about how 
that will work between the countries, our country, their 
country, and how those conflicts will be settled.
    Mr. Shannon. Happily, Senator. I'll also allow my colleague 
to talk a bit about how we use letters of agreement and end-use 
monitoring, in order to track the use of equipment and 
training.
    But first, let me highlight the fact, that in the $550 
million that we're asking for, there will not be money 
transfers to either Mexico or to Central American countries. 
Everything will be either equipment or training. And this 
equipment and training will be provided through letters of 
agreement that we negotiate with the Mexicans that do have end-
use monitoring requirements, that Ambassador Johnson can 
address.
    In terms of sovereignty, in Mexico, the Mexican fight 
against organized crime and drug trafficking will be a Mexican 
fight. All operational activities will be undertaken by Mexican 
authorities. We will be in a position to provide equipment and 
training and information through arrangements we have currently 
from the Drug Enforcement Agency, U.S. Customs, and other 
Department of Homeland Security agencies working in Mexico.
    But we are effectively looking for ways to enhance the 
ability of Mexican institutions to protect the Mexican State, 
because this is really the central challenge that Mexico faces 
at this point.
    The purpose of organized crime, in its engagement with the 
state, unlike political insurgencies, is not to conquer the 
state, it's to debilitate it, it's to weaken it to the point 
that it cannot undertake its functions of fighting crime, which 
creates space that allows organized crime to operate in. One of 
the things we're attempting to do--working with the Mexicans, 
working with the Calderon administration--is to enhance the 
capability of Mexican institutions to fight their own fight.
    What is significant about the request that we received from 
Mexico and the negotiations and the effort to build a 
partnership with Mexico at this point, is that Mexico has never 
asked for this level of assistance in the past. It has never 
opened itself to this kind of dialog with us, it has never 
proposed this kind of cooperation. And, from our point of view, 
this is indicative of the gravity of the situation, but also 
the opportunity that presents itself to us.
    Mr. Johnson. If I could just say a couple more words about 
the end-use monitoring issue. We do undertake to provide both 
the provision of the equipment and the supplies and spares, as 
well as the training, with specific provisions for how we will 
have access to this equipment, how it will be used, and an 
ability to have an audit trail, so that we can examine so that 
we'll know that these conditions under which it's been 
transferred have been complied with.
    With respect to the training, that will be carried out by 
both U.S. Government entities, where appropriate elements of 
the Department of Justice or Homeland Security, as well as, in 
the cases where it's more appropriate and efficient, by the 
U.S. private sector. Some of that will take place in Mexico, 
some of it in the United States. The individuals who are--who 
take part, the Mexican nationals who take part in that 
training, their names will be provided to us ahead of time, we 
will undertake to determine and ensure that none of those 
individuals have been involved in any criminality or any abuse 
of human rights that has been documented in the past, and so 
that we can be as--as sure as one can be that we're providing 
training to people who, that is both appropriate and will be 
effective to do so.
    Senator Corker. You know, we have a tendency around here, 
we're probably the worst, those of us sitting up here, at 
creating new initiatives all the time, that don't take into 
account other things that are occurring. I'm sure that's not 
the case here, but would you explain how this is working in 
concert with--with other activities right now? And then, after 
speaking to that, talk a little bit about how it ties into some 
of the things inside of our country. I know we have some, in 
the southeast part of our country for sure and I'm sure other 
places also, that's what I'm familiar with, we have cartels 
operating inside our country, and I'd love to hear a little bit 
about how those are--those efforts are being coordinated with 
eradicating that inside our country.
    Mr. Shannon. Senator, in regards to how this links to our 
other activities in the region, we are trying to build, with 
the Merida Initiative, a larger regional approach to fighting 
organized crime and drug trafficking throughout Latin America 
and into the United States. We have focused, for quite some 
time, on source countries, especially those countries in the 
Andes, such as Colombia, where the vast majority of cocaine is 
produced, recognizing that there are other source countries for 
heroin, marijuana, and methamphetamines.
    But we're also focused now on the transit lanes of drugs as 
they move out of the Andes through Central America and Mexico. 
As has been noted in some of the statements, we now believe 
that about 90 percent of all the cocaine entering the United 
States moves through Mexico. This is because of a change in 
nature of organized crime and cartels in the region, but also 
because of success that we've had in interdicting the movement 
of cocaine in the Caribbean.
    So, what we want to do is link our source-zone strategies 
with our transit and end-market strategies, so that we have a 
single regional approach. And as we do this, also begin 
conversations in the Caribbean and enhance the ability of 
Caribbean nations to make sure that drugs don't slip back into 
the Caribbean.
    The one problem we have in addressing the larger Caribbean 
strategy, at this point in time, is Venezuela, because most of 
the cocaine that's moving through the Caribbean at this time, 
is moving through Venezuela--with Venezuela acting as a 
trampoline--either moving to Hispaniola, to either Haiti or the 
Dominican Republic, or moving to West Africa, and from there it 
moves up into Europe.
    At one point we had a fairly robust counterdrug cooperation 
strategy with Venezuela that has suffered over the past several 
years, under the government of Hugo Chavez. We have negotiated 
a Memorandum of Understanding with the Government of Venezuela, 
in an effort to improve our drug cooperation, and especially 
improve the activity of U.S. agencies in conjunction with 
Venezuelan agencies. And although we've concluded that treaty, 
the Government of Venezuela has yet to sign it.
    Mr. Johnson. Just to add quickly. We have, currently, a set 
of programs working with Mexico, principally on the--in the 
border area. They are funded at the level of about $25 million. 
But this program we're talking about is a quantum leap beyond 
that, both because of the threat that we face, as well as the 
opportunity that we think is unique, that's been provided here.
    Senator Corker. If you would, just--and how that ties to 
some of the things that are happening inside of our country, 
though there's full coordination both ways.
    Mr. Johnson. Yes, sir. There, I mean, there--we are working 
hand in glove, if you will, with this program, coordinating 
with our law enforcement authorities, our Federal ones, the FBI 
and the Immigration and Customs enforcement people in 
particular. They are supportive of this program, believe it 
will help them in their work along the border.
    I can't tell you how it would impact things, you know, well 
into the interior of the country though.
    Senator Corker. OK. Thank you, Mr. Chairman.
    Senator Menendez. Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Gentlemen, are either of you comfortable with the level of 
law enforcement efforts inside this country, with respect to 
drugs?
    Mr. Shannon. Sir, do you mean the activity of U.S. law 
enforcement agencies?
    Senator Webb. Yes. Inside this country, governmental 
entities addressing the drug situation inside this country. Are 
either of you comfortable with the level or are you satisfied 
with the effectiveness inside the country?
    Mr. Shannon. Well sir, we can always do more and we have to 
do more.
    Senator Webb. We do have to do more.
    Mr. Shannon. But----
    Senator Webb. Are either of you comfortable with the 
effectiveness of the antigang law enforcement efforts inside 
this country?
    Mr. Shannon. By comfortable, well obviously we need----
    Senator Webb. Satisfied as an American.
    Mr. Shannon. No. Satisfied, no. We need to do more. We 
always need to do more.
    Senator Webb. This is--this is the difficulty that I'm 
having with this proposal. And I salute you for all the efforts 
that you're doing, in terms of coordinating with other 
countries and that sort of thing. I mean, when you talk about 
the threat to the Mexican State, we have a threat to the 
American State. And I'd love to have a $1.4 billion, 
particularly in the area of gangs.
    I mean, when we talk about drugs, the difficulty with 
drugs, it is global, not, you know, not simply, heavily Mexico, 
but not simply in that part of the world. But it's also local. 
There was an article in the Economist a couple of weeks ago 
that said the No. 1 agricultural crop in California is 
marijuana. And wherever it starts, and we talk about demand 
reduction programs, you know, the difficulty in the United 
States is it's a demand-pull problem. And where the these 
different entities are trafficking just depends on, it's almost 
like guerilla warfare. You know, it's where you push here, 
they're going to be over here.
    And the situation with gangs is a very serious problem 
here. Northern Virginia is second only to certain areas in 
California, in terms of gang activity, violent gang activity. 
In fact, I would--I would like to hear your thoughts on the 
gang activity in the United States that has its roots in Mexico 
and Central America. MS13 is all over northern Virginia. How do 
we address that situation with what you're doing?
    Mr. Shannon. Thank you very much for raising this Senator. 
This is a very important issue and as an American, I have a 
interest in this, but I also have a special appreciation. Both 
of my brothers are special agents in the FBI. One was head of 
the FBI Dallas Violent Crimes Task Force. He is currently 
stationed at our Embassy in Baghdad. I have another stationed 
in California, who will be also going on temporary duty to 
Baghdad shortly as part of a FBI contingent.
    So, I've been around law enforcement officers for quite 
some time. I've lived with them. And I understand the tough 
nature of their job. I would note that as we attempt to find a 
successful strategy against organized crime, as we try to find 
a successful strategy against gangs and drug cartels, we have 
to recognize the transnational nature of these criminal 
phenomenon.
    And yes indeed, we can spend more money inside the United 
States and maybe we should be doing that, but we can't, at the 
same time, ignore what's happening outside the United States. 
And the degree to which weakened democratic States in Mexico 
and Central America will enhance the ability of organized crime 
to function and operate inside the United States.
    And we're seeing this especially in regard to gangs. You 
mentioned the Central American gangs, which really are a 
scourge in northern Virginia and in parts of California. And 
one of the things we have been attempting to do in our security 
dialog with Central America is develop an antigang strategy, 
which will attempt to address gang violence in Central America, 
recognizing that there is communication, movement, and 
cooperation between gangs operating out of Central America and 
in several of the municipal areas in the United States.
    And this is why, in the Central American portion of this 
package, we will be fully funding a gang strategy, which is 
designed, not only to improve the capacity of law enforcement 
agencies in Central America to identify and address gang 
issues, but also, it has a social or preventative side to it 
that recognizes that many of the gang members join gangs 
because of a fundamental breakdown in families and society, and 
attempt to help the countries of Central America, especially 
the focal points of gang activity, like El Salvador and 
Honduras and Guatemala, to begin to build some preventative 
programs that will address at-risk youth.
    Senator Webb. Well, to a certain extent, these violent 
gangs are businesses. To a certain extent, they're 
insurgencies, quite frankly. I mean, you can go into Central 
America and see MS13 bumper stickers on cars like we have 
Redskins up here. You know, it's not necessarily a stigma to be 
a member of one of these gangs down there, and we have a 
problem here.
    I learned a long time ago, as a Marine rifle platoon and 
Company Commander fighting a guerilla war, you can chase them 
in the mountains all you want and you will get one or two, but 
you figure out where they have to go and that's where you set 
up your ambushes, you know. The people who are trafficking this 
stuff and the people who are conducting this activity, many of 
them have to come here. And this is where we need to have 
really robust enforcement. And I'm very concerned as an 
American that that's not occurring.
    And to give you just another analogy, having spent time as 
a journalist in Afghanistan a few years ago, all of the stuff 
we've been doing in Afghanistan and we hardly ever end up 
talking about it up here in the Senate. We can talk about 
corruption of government, we can talk about alternate 
agricultural crops, et cetera, but the truth of it is, I can't 
tell you that every village in Afghanistan had an opium patch. 
I can tell you every village I was in, in Afghanistan, had an 
opium patch, and I was in nine different places. And it's a 
demand-pull problem again, you know, they know that there's a 
market and you can't run around Afghanistan and pull up every 
poppy plant. You come back here, where the source of the 
problem, and that's where you put your energy.
    And, again, in all due respect to what you're doing--and I 
do respect what you're doing and what your brothers are doing--
I think we need to have the right kind of strategy, in order to 
kind of work this from the inside out.
    Thank you, Mr. Chairman.
    Senator Menendez. Thank you.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    Secretary Shannon, I want to discuss the border security 
piece for a second. A significant part of illegal immigration 
into the United States is drug related or drug induced. Is that 
not correct?
    Mr. Shannon. I believe, sir, that the majority of illegal 
immigration coming in the United States is economically driven. 
It's people leaving Central America and Mexico in search of 
jobs in the United States.
    Senator Isakson. But aren't a number of the drugs coming 
into this country flowing through illegal entries?
    Mr. Shannon. Oh, I'm sorry, I misunderstood the question. 
Without a doubt, most of the drugs are flowing through illegal 
entries.
    Senator Isakson. Mr. Johnson, you made a statement which I 
caught very quickly, and I've been trying to find it in the 
printed speech and I can't, but you said, ``We've finally 
broken through some longstanding taboos.'' I am curious what 
you were referring to, in terms of longstanding taboos.
    Mr. Shannon. Well sir, our relationship with Mexico has 
been a complicated relationship historically. And Mexican 
nationalism is a powerful, emotional, psychological, political 
force in Mexico. And, the Mexicans have always sought, as they 
have engaged with us, to do so in a way that ensures their 
sovereignty is respected, and they believe that they are 
entering, not in a relationship of a donor and client, but a 
partnership. And therefore, they've jealously guarded certain 
aspects of their relationship with us.
    The fact that they have approached the United States and 
underscored a willingness to work with us in a fashion that 
they've never done before, is striking. And, this reflects, not 
only the political will of President Calderon, but it also 
reflects an understanding by the President and his political 
advisors that Mexican citizens recognize the danger that Mexico 
faces right now. And that Mexican citizens themselves, are 
prepared for a deeper, different kind of relationship with the 
United States. And that's the taboo that's being broken down.
    Senator Isakson. Well, that's what I hope you meant, 
because I went to the border in January, both San Luis and Yuma 
section, as well San Diego. And we were finding, for the first 
time, increased cooperation by the Mexican Government, in terms 
of their law enforcement on their side of the border, vis-a-
vis, the illegal immigration issue.
    I'm really not going to put you in the position of 
responding to this statement, but I find it interesting that 
$31.3 million of this proposal is money going to the Mexican 
Immigration Agency's National Migration Institute, and a good 
portion of this on the interdiction and border security is for 
the type of equipment you need in securing the Southwestern 
border. I find it further interesting that $1.4 billion is 
almost half of the $3 billion we had put in the Defense bill, 
which got taken out recently for border security.
    And the point I want to make is this, I sense for the first 
time in Calderon--President Calderon--a sense different from 
what was true under Vicente Fox. I think there is a new 
paradigm. I think some old taboos are going away. And I know in 
one of the questions you referred to not leveraging or 
conditioning U.S. participation in this to anything from 
Mexico, but this is the type of thing when we should begin 
striking agreements with the Mexican Government in the bigger 
picture of border security.
    We think it's a $3 to $4 billion capital investment to do 
what we need to do to get the border secure. If we do that, it 
makes your job, and what you're trying to do here a whole lot 
easier, because ultimately, inability to transit across the 
border, easily, is the best thing we can do to stop the flow of 
drugs, at least on the land border, then you have to deal with 
other areas.
    So, Mr. Chairman, my only comment on this, is that when we 
talk about $550 million, which is a third of the $1.4 billion, 
which is 50 percent of the $3 billion that is what we think we 
need, albeit it was taken out of the Defense authorization 
bill.
    I hope as you bring programs like this forward, that are 
United States-Mexican programs--whether it's immigration or 
whether it's illegal drugs--it would be a part of a bigger plan 
to ultimately do what we've got to do, and that is secure the 
border between the United States and Mexico, because that, in 
the end, is the solution to a lot of the microproblems we're 
attempting to address.
    And like I said, that was a speech, that wasn't a question, 
you don't have to answer it, but I had to get that in, Mr. 
Chair.
    Thank you, gentlemen.
    Senator Menendez. And you did it successfully. [Laughter.]
    We'll go through a second round of questions and the Chair 
will recognize himself.
    Secretary Johnson, what did we spend on Plan Colombia, 
about $5 million so far? Secretary Shannon, is that about 
right?
    Mr. Johnson. Roughly.
    Senator Menendez. Well, $5 billion later in Plan Colombia, 
we are largely at the level of production of cocaine that we 
were at before we started Plan Colombia. If we talk about the 
reduction of violence, yes, we have helped Colombia succeed in 
that respect.
    But, as an effort on the narcotics front, I don't know that 
we can consider it a success, $5 billion later. And it seems to 
me that if the administration wants to present this initiative 
in that context, it hasn't learned much from Plan Colombia.
    It seems to me, if you want to talk about this initiative 
as largely being to create greater security and help reduce 
violence in Mexico and along the United States-Mexican border, 
that's one thing. But to suggest that it is going to help us 
significantly in the narcotics flow is another, because we had 
that experience. At $5 billion later with Plan Colombia, we've 
got largely the production that we had before, and we still 
have--as your own testimony has talked about--the flows from 
Colombia, through maybe, Central America, through Mexico, to 
the United States. So it seems we didn't achieve anything 
there.
    My point is, you'd think we'd learn from 5 billion dollars' 
worth of experiences, that you need to have a multifaceted 
approach to achieve this problem.
    Which goes back to the statement that you put all in your 
justification documents to the Congress. I want to quote Kofi 
Annan's statement where he says, ``We will not enjoy 
development without security, we will not enjoy security 
without development, and we will not enjoy either without 
respect for human rights.'' And it's human rights that I now 
want to talk about.
    In 2003, the U.N. Committee Against Torture found that the 
``Mexican police commonly use torture and resort to it 
systematically as another method of criminal investigation, 
readily available, whenever required, in order to advance the 
process.''
    In November 2005, the Mexican National Commission on Human 
Rights reported that torture remained widespread in Mexico. 
According to human rights organizations, judges often ignore 
reports of the use of torture to extract information or 
confessions from criminal suspects, lending way to statements 
potentially made under duress.
    The role of the Mexican military has been expanded to 
include law enforcement operations, and active military 
personnel are working side by side with police in Oaxaca, where 
there have been social movements met with reported excessive 
use of force, by State, municipal, and Federal police.
    And then, the State Department put out in its Human Rights 
Report for 2006, which was issued in March of this year, 
saying, ``A deeply entrenched culture of impunity and 
corruption persisted in Mexico, particularly at the State and 
local level. Among the human rights problems reported were, 
unlawful killings by security forces, kidnappings--including by 
police--torture, arbitrary arrests and detention, corruption, 
inefficiency, and a lack of transparency in the judicial 
system.''
    This is the framework of which we're going to give 40 
percent of resources to the Mexican military. My concern is--
what is being done in this process to make it very clear to 
prevent that all of these resources that the use--the 
widespread use of torture in the public security and criminal 
justice systems under the very entities that are going to be 
the end receivers of the President's proposal--are going to the 
people who have this history or, the institutions that have 
this history? How are we going to guarantee that the very money 
that we're trying to provide for the purposes of security, I'll 
call it security, I won't call it the rest, because I don't 
think it does very much about the rest--don't go to the very 
entities that are going to continue to commit a history that 
has been documented, both internationally and by the State 
Department? Are we going to only allow these moneys to go 
through vetted battalions, or vetted police forces? What's your 
control here to guarantee that our money isn't being used to 
perpetuate human rights violations?
    Mr. Johnson. That's exactly our intention--to take these 
money--take the training programs, to take the provision of 
equipment, and to provide it only to individuals and groups 
that we can assure ourselves have not been engaged in these 
activities.
    One of the key things you said in quoting, I believe, the 
State Department report, that we're not going to get at, and 
that is the State and local. This is focused, at this point, 
exclusively on Federal forces. And I would, I think at least in 
that report, the indication was that this type of activity 
takes place, if I'm remembering correctly, from what you said, 
mostly at the State and local level. So that----
    Senator Menendez. It's not only at the State and local 
level.
    Mr. Johnson. No; I did not mean to say that.
    Senator Menendez. I just wanted to----
    Mr. Johnson. I think, in terms of the training, the 
provision of training and the provision of equipment that is 
included in this request----
    Senator Menendez. How are you going to vet those entities?
    Mr. Johnson. We're going to use the materials that we have 
in the United States, as well as our Embassy in Mexico, 
national name checks, the databases that we have access to, to 
determine whether any of the individuals concerned or if it's 
a--concerns a unit, any of the units that we might be providing 
equipment for, have been engaged in any activities that you 
described.
    Senator Menendez. Do we have such a database that would 
tell us who our human rights violators in the military and the 
national police in Mexico?
    Mr. Johnson. We use those databases worldwide when we're--
in order to comply with the law, as to what's required in terms 
of providing equipment or providing training, providing any 
assistance.
    Senator Menendez. So, Mexico understands that we're only 
going to let them have the helicopters and the resources only 
to vetted entities, is that what you're telling me?
    Mr. Johnson. To vetted individuals, or vetted entities. 
Training, to individuals. It's in the law. We----
    Senator Menendez. Well, I'd like to pursue that a little 
bit more.
    Mr. Johnson. OK.
    Senator Menendez. The reality is, I'd like to see how we 
are going to vet these entities. Because, I certainly have 
heard from more than my share of entities within Mexico who are 
concerned about how these resources get used by those entities 
within Mexico, those law enforcement and military entities in 
Mexico, some which have the history that I recited earlier.
    And, we cannot as a country, at the same time that we want 
to help, be in the midst of giving resources to those parts of 
the Mexican Army and/or the Mexican national police that might 
very well be engaged in human rights violations.
    Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    I'm curious about your general overview of relations with 
Mexico.
    The third paragraph in your opening statement, Secretary 
Shannon, indicates, ``President Bush recognized the United 
States has an unprecedented opportunity to reduce the economic 
and human toll in our cities and towns, emanating from cross-
border crime,'' and then you follow through in the second page 
of your testimony, that ``President Calderon has acted 
decisively, using the most effective tools at his disposal, 
reorganizing the Federal police, and putting new and additional 
resources in the hands of security services, deploying military 
units to support operations, arresting crime figures, 
extraditing record number,'' as evidence that there is 
something different here.
    And I gather, one of the reasons why you're approaching 
with some urgency, as an emergency situation is to pay tribute 
to the fact that there is this kind of initiative, and an 
invitation for us, the United States, to participate with the 
President and his officials in Mexico. But, I don't want to 
overstate the rationale, I really want you to state it.
    In other words, leaving aside the particulars of the 
initiative, what is the shape of the relationship now? Why is 
it new, or unprecedented or different than any we've had 
before, and offers you such encouragement through this, that 
you're coming forward at this point for this emergency 
appropriation?
    Mr. Shannon. Thank you very much, Mr. Senator.
    I think in some ways the question goes to the very heart of 
why we have presented this as a supplemental, and the 
opportunity that we think is before us at this point in time.
    Obviously, Mexico is a longstanding neighbor and a country 
with which we have a long and complicated relationship. But we 
saw, following the election of Vicente Fox, a desire and a 
willingness to reestablish, or transform in some fashion, the 
nature of the bilateral relationship, and focus on those 
specific issues that link the United States and Mexico, as 
opposed to those that separate it.
    With the election of Felipe Calderon, we found that that 
same kind of commitment to transformation of relationship, but 
also a recognition that there was one key issue--which was the 
fight against organized crime and drug cartels--that threatened 
Mexico, that opened an opportunity for cooperation with the 
United States, in the interests of both countries.
    And it was the commitment from President Calderon and 
concomitant commitment from President Bush to recognize our 
responsibility in addressing this shared threat that really 
opens this unique and important space.
    Because, as I noted earlier to Senator Isakson, President 
Calderon is taking a political risk. He's taking a political 
risk by reaching out to the United States in this fashion. The 
fact that he is doing it, I think, underscores the seriousness 
of the problem, but it also highlights what we might be able to 
accomplish through successful cooperation and partnership. 
Because it is evident from polling data and elsewhere, that the 
Mexican people themselves are ready for a different kind of 
relationship with the United States, one built on partnership.
    And if we can accomplish that, not only will we achieve 
important national security goals in the United States and in 
Mexico, but we will be transforming the nature of the 
diplomatic and political relationship that will allow, I think, 
the United States and Mexico to cooperate more fully in other 
areas of interest to us.
    Senator Lugar. I think that's very important, and that's 
why I appreciate your underlining that.
    At the beginning of President Bush's administration, there 
was hope that there would be--through his own understanding as 
Governor of Texas--a new chapter in the relationship, and I 
think that was moving ahead.
    Many have testified before this committee that the events 
of
9/11, the preoccupation of the United States, understandably, 
with a different set of circumstances led to disappointment by 
President Vicente Fox.
    I would just say, personally in that period of time, which 
there was an emphasis with Mexico, I made a personal appeal to 
President Fox, to send a consult from Mexico to Indianapolis, 
to relieve the difficulties in Chicago that were servicing all 
of the Mexican citizens in the Midwest, and this consult 
performed extraordinary service to our State and likewise to 
all the citizens that he was serving, both Americans and 
Mexican.
    And, so I've seen, and am enthused about the prospects, 
when the green light is there.
    But, at the same time, it would appear that with the new 
Presidency, as you would say, he's prepared to take some 
political risk. He's taken some action so it's a track record. 
The appeal, therefore, to us. And that seems to me to be an 
important underline.
    I think without mitigating the importance of each of the 
personal or technical circumstances we've talked about today 
with the program, it's the overall relationship that really has 
to be in focus here, at a time that we've had very, very 
difficult debates on immigration issues and other ways in which 
we have discussed Mexico and the relationship and the border.
    So, I just take this opportunity for this second round of 
questioning to emphasize that part, the importance of the 
relationship, and I appreciate your testimony.
    Mr. Shannon. Well, Senator, thank you very much. As we work 
with the Congress on this proposal, I would emphasize that we 
are open to an honest, comprehensive debate about all aspects 
of this proposal. But I would underscore that history lies 
before us. This is an opportunity that has not been presented 
before, we should not let it go.
    Senator Lugar. Thank you.
    Thank you, Mr. Chairman.
    Senator Menendez. Thank you, Senator Lugar.
    I just have one or two other questions. I certainly agree 
with Senator Lugar, that the relationship is of incredible 
importance. And any opportunity, in a change in that 
relationship for the better, should be pursued.
    But by the same token, the creation of an opportunity for a 
relationship does not create an emergency for the asking of 
half a billion dollars. That's a different dynamic, that's a 
question as to whether or not we have an emergency, which does 
not get paid for, which goes on to the national debt. And that 
certainly, in my view, should be judged independently.
    Let me ask you this, you said in response--I forget which 
one of you answered that--there is not a money transfer here to 
the Mexican Government. There is only equipment, training, and 
information. The information, I assume, is that intelligence?
    Mr. Johnson. The information is basically intellectual 
property, the training itself, training individuals, training 
trainers. The exchange of information, in terms of what we 
commonly call intelligence, is going on already.
    Senator Menendez. So we are sharing intelligence already?
    Mr. Johnson. We're sharing information, with respect to 
joint operations with units that are already vetted, working 
with the DEA, for example.
    Senator Menendez. But are we sharing other forms of 
intelligence with the Mexican Government, intelligence that is 
sensitive for these purposes already, are we doing that?
    Mr. Johnson. In terms of law enforcement, absolutely. I'm 
not sure what you're----
    Senator Menendez. And are we satisfied that the sharing of 
our intelligence isn't misused by entities--Senator Boxer 
referred to some of the entities that have actually then joined 
with the cartels--against the Mexican Government itself, and 
obviously would be against our own interests.
    Mr. Johnson. How----
    Senator Menendez. My point is, you said we're going to 
share information. Information about systems and procedures, 
that's one thing, intelligence is another. And how we share 
that intelligence and making sure that we are sharing it in 
such a way that we are convinced that the intelligence we are 
sharing is being used with vetted entities, in which that 
intelligence will not be used against our vital interests, is 
very important. Can you guarantee the committee that that's 
being done now and that's what's going to be done here?
    Mr. Johnson. That's exactly what's being done now. That 
takes place within the law enforcement framework, as opposed to 
this training and assistance framework. We will be providing 
the training for individuals and groups and equipment for them, 
so that this exchange of information can be more effective and 
that they will have the capability, when we are working on 
joint operations, to actually carry them out. But we've 
already--in terms of the Drug Enforcement Administration, 
already undertakes to background checks, polygraph examinations 
for the individual groups with which they work on these 
operations.
    Senator Menendez. Well let me ask you this, some 40 percent 
of the proposal for Mexico is focused on 10 aircraft, 8 
helicopters, and 2 maritime surveillance planes. What is the 
strategy that is being committed to purchase the 10 aircraft, 
and how are these going to contribute substantially to breaking 
the backs of the cartels?
    Mr. Johnson. The aircraft in question have been looked at, 
in terms of their interoperability, both with us and with what 
the Mexicans already have. So the type of helicopters are being 
purchased, ones that they already--similar to ones they already 
have in their inventory.
    In terms of the fixed-wing aircrafts, they are the same 
kind and equipped similarly to the one that our U.S. Coast 
Guard uses, so that we can work together--they're for the 
Mexican Navy--so that we can work together, where our joint 
surveillance works in the Gulf of Mexico, as well as in the 
Pacific. I mean, that's our intention, is to provide them with 
the platforms, so that they can work cooperatively with us on 
what we believe to be a joint threat.
    Senator Menendez. I appreciate the interoperable aspects 
and that they are similar to our own. The question is, if 
you're going to dedicate 40 percent of the money to Mexico 
based on this, this is 40 percent of your proposed solution. 
The question is, What is the strategy being deployed by the use 
of this equipment, that is going to be part of, being 40 
percent of the solution? How is this going to make a difference 
in breaking the backs of the cartels?
    Mr. Johnson. It's going to provide both the collection 
platform, as well as the mobility, so that when operations are 
undertaken for interdiction and to deter the operations of 
these cartels, you can actually move people to where they need 
to be.
    Senator Menendez. Well, in that regard, let me ask you, 
What role did the United States, Mexican, and Central American 
law enforcement entities play in the development of this aid 
package?
    Mr. Shannon. Within the United States, our interagency 
community on the United States side, which meant all Federal 
United States agencies--DEA, FBI, Customs, and DHS, with its 
corresponding agencies--engaged with all the Mexican public 
security ministries, including the counterparts of the 
different United States institutions, such as DEA and Customs, 
and had a series of technical meetings in the United States and 
in Mexico.
    And then we also had what we called validation teams that 
traveled from the United States, again, with representatives 
from all the relevant agencies and law enforcement entities, to 
meet with their counterparts in Mexico to discuss the different 
items that we were looking at to determine how they linked to a 
broader strategy and how they could be used effectively.
    In Central America, our engagement was two-fold. It was 
through civilian, public sector, public security ministries, in 
terms of building our larger SICA-U.S. security dialog, but 
also, each of our Embassies, working through our narcotics 
assistance section, engaged with the law enforcement entities 
that they normally work with.
    Senator Menendez. Did we engage our military with the 
Mexican military?
    Mr. Shannon. Yes; we did. Although the money that's being 
requested now is INCLE money, in other words, it'll be money 
managed through the Department of State, our Defense Department 
participated in validation teams, looking at the different 
aircraft requirement, especially the helicopters and the 
aircraft.
    Senator Menendez. Well, let me thank you both for your 
testimony today.
    Let me close by saying, I think many of us I should say--
want to take full advantage of any opportunity to enter into a 
more comprehensive relationship with Mexico. It is an 
incredibly important partner of the United States, we share a 
common border, and we share a common interest. So, those of us, 
however, that have criticisms of the package as devised, should 
not be viewed as not wanting to engage in that relationship and 
not wanting to be helpful to the Mexican Government, and 
certainly to the Central American Governments to achieve the 
goal.
    However, the question is how do we best achieve that. And 
some of us believe that the package as devised, does not meet 
our collective goals. Some of us are concerned about ensuring 
that human rights provisions are safeguarded in this process. 
Some of us are concerned if development issues are considered, 
because we learned if you tell a poor coca farmer in Colombia 
that you're just going to eradicate his field, then he goes to 
another field to go plant coca. He's going to do whatever he 
has to do to sustain his family. If you give him a sustainable 
development alternative, then maybe he will move away from 
that.
    And the reality is, $5 billion later, and Plan Colombia is 
only in the late stages of that and, we have some understanding 
that development assistance might be part of the solution.
    We have our friends who are concerned about immigration, as 
we all are in this country, and undocumented immigration. You 
know, people flee for basically two reasons: Dire economic 
necessity or civil unrest. And so the reality is we are doing 
nothing about dire economic necessity, so we still have people 
come to the north.
    And then we have a demand in this country for illicit 
drugs. We don't do what we need to do in order to reduce the 
demand, and therefore, we continue to draw the flow of 
narcotics to this country.
    So, it just seems to me that having spent billions of 
dollars in similar initiatives, we have yet to learn some of 
those lessons. I hope the administration will be thinking about 
some of those lessons as we move forward in however shape this 
initiative might take place.
    I appreciate both of you coming and your answers to 
questions. The record will remain open for 2 days so that 
committee members may submit additional questions to our 
witnesses. And we ask our witnesses to respond expeditiously to 
those questions.
    If no one has any additional comments, the hearing is 
adjourned.
    [Whereupon, at 4:15 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 Prepared Statement of Leo W. Gerard, International President, United 
                              Steelworkers

     congress should not provide funding for plan mexico until the 
 government ends its political persecution of the national miners' and 
                          metalworkers' union
Introduction
    The United Steel Workers (``USW'') is deeply concerned that an 
emergency funding package the administration recently requested for the 
Government of Mexico (``GOM'') may be used to undermine labor rights, 
civil rights, and human rights in that country and further may be used 
to target political opposition arising from labor and other social 
movements in Mexico. Like Plan Colombia, a Plan Mexico could result in 
gross violations of human rights, which would have the effect of 
undermining the rule of law in Mexico and creating a climate of terror 
and fear instead of cultivating individual freedom and justice for all 
Mexicans. As leading human rights organizations such as Amnesty 
International and Human Rights Watch have documented, Mexican security 
forces operate in an environment of impunity which has given them a 
free rein to commit serious human rights violations.\1\ Indeed, on 
October 11 a U.S. immigration judge stopped the deportation proceedings 
of a former drug informant based on the grounds that under the U.N. 
Convention Against Torture the informant would be at risk of torture by 
the Mexican Government if deported to Mexico.\2\
---------------------------------------------------------------------------
    \1\ See Amnesty International, ``Laws Without Justice'' (Feb. 7, 
2007); Human Rights Watch, ``Lost in Transition'' (2006).
    \2\ See El Paso Times, ``Judge Halts Deportation of Juarez Drug 
Informant,'' October 26, 2007.
---------------------------------------------------------------------------
    Mexico has systematically repressed independent, democratic labor 
unions who have attempted to challenge the government-dominated system 
of labor relations--a system established under 70 years of one-party 
rule and which continues to this day.\3\ In particular, the USW is very 
concerned about the political persecution of the National Miners' and 
Metalworkers' Union (``Los Mineros'') and its democratically elected 
leader, Napoleon Gomez Urrutia (``Gomez''). This persecution has lead 
to continued labor strife, the wrongful killing of three union members 
and the willful disregard of mine safety, which caused a horrific mine 
explosion at the Pasta de Conchos mine in 2006 leaving 65 miners dead. 
Continuing impunity has also meant a complete failure to hold 
accountable the parties responsible for the deaths of those 65 
mineworkers.
---------------------------------------------------------------------------
    \3\ See Lance Compa, ``Justice for All: The Struggle for Worker 
Rights in Mexico,'' AFL-CIO Solidarity Center 2004; Public 
Communication to the U.S. National Administrative Office under the 
North American Agreement on Labor Cooperation (NAALC) Concerning the 
Introduction of Reforms to the Federal Labor Code of Mexico, 17 
February 2005.
---------------------------------------------------------------------------
    Gomez was illegally removed from office and threatened with arrest 
on trumped up charges because he was fighting hard for better wages and 
working conditions, forming alliances with other international unions 
to increase the bargaining power of Los Mineros, and opposing labor law 
reforms promoted by the government that would have weakened workers' 
rights. While the Mexican Federal courts have reinstated Gomez to his 
union position and acquitted him of baseless criminal charges, the GOM 
has appealed that acquittal,\4\ and at the same time is working to 
undermine Los Mineros. Thus, it is imperative that the GOM understand 
that its blatant abuse of power against legitimate unions and their 
leaders will not be condoned.
---------------------------------------------------------------------------
    \4\ See ``Impugna PGR amparo a Gomez Urrutia'' (translation: PGR 
challenges Gomez Urrutia on appeal), Reforma, Nov. 6, 2007.
---------------------------------------------------------------------------
Background of Plan Mexico
    On October 22, 2007, the administration sent Congress a 
supplemental war spending proposal exceeding $1.96 billon. That 
emergency spending request includes $500 million for the Mexican 
Government to combat transnational crime and illicit drugs. The $500 
million is a downpayment on a multiyear, $1.4 billion aid package to 
Mexico and is the culmination of a deal struck behind closed doors 
between Presidents Bush and Calderon without consultation with or 
advice from the members of the U.S. or Mexican Congress. The 
administration has released few details about Plan Mexico, preferring 
to simply ram it through Congress by wrapping it into other war 
spending.
    According to news stories, the bulk of the first tranche of funding 
would be for several transport helicopters and two surveillance planes, 
with lesser amounts to purchase inspection equipment and upgrade 
technology for the Mexican attorney general's office. Yet, how the 
funds would be spent is a matter of conjecture, as the moneys provided 
under Plan Mexico come with no human rights or other conditions 
attached.
The Political Persecution of Napoleon Gomez Urrutia and Los Mineros
    The plight of Napoleon Gomez is a wakeup call to all in Congress 
who are concerned with labor and civil rights in Mexico and with that 
government's establishing and adhering to a rule of law and not men. 
Independent labor unions have been a particular target of government 
repression. Before any funding is approved, Congress should understand 
the story of Mr. Gomez and should call upon the GOM to end its 
persecution of this union leader by dropping its appeal of his 
acquittal on criminal charges--charges that were blatantly false--so 
that he may return to Mexico and resume his rightful position as the 
democratically elected leader of Los Mineros union. The GOM also should 
cease in its efforts to undermine Los Mineros by supporting pro-company 
unions, and should act immediately to enforce and to strengthen health 
and safety protections in the mining industry.
    As described in detail below, the GOM and Grupo Mexico, a privately 
owned Mexican multinational that is the third largest privately held 
copper mining company in the world, engaged in a broad-scale attack 
aimed at eviscerating the union and eliminating Gomez as the head of 
Los Mineros by:

  <bullet> Improperly withdrawing legal recognition of Gomez as a union 
        official;
  <bullet> Using excessive force during a strike that wrongfully killed 
        union members;
  <bullet> Installing a pro-company union once Gomez was illegally 
        ousted;
  <bullet> Ignoring life-threatening mine safety problems that lead to 
        the mine explosion at Pasta de Conchos mine and 65 dead miners;
  <bullet> Filing baseless charges in Federal and State courts against 
        Gomez.
Los Mineros Under the Leadership of Napoleon Gomez: A New Direction
    Los Mineros \5\ was founded in 1934 and represents Mexican workers 
in the mine and metal industries under some 80 collective bargaining 
agreements with Mexican employers. Los Mineros was led for 40 years by 
Napoleon Gomez Sada and during that time maintained a close 
relationship with the ruling Institutional Revolutionary Party (PRI). 
In 2002, Napoleon Gomez Urrutia, the son of Gomez Sada, became the new 
General Secretary of Los Mineros.
---------------------------------------------------------------------------
    \5\ The formal abbreviation for the National Union of Mine and 
Metal Workers is SNTMMSRM.
---------------------------------------------------------------------------
    Gomez, an Oxford-trained economist, had a different approach; he 
instituted a democratic union structure and started to fight for 
improved wages, benefits, and working conditions. Gomez demanded that 
jobs that had been contracted out by the mining companies be 
``contracted in,'' thereby adding thousands of new members for Los 
Mineros.\6\ Gomez fought for increased wages arguing that Mexican and 
multinational companies were reaping immense profits from the global 
boom in basic metals fueled by demand from China, yet wage increases 
were stuck at levels negotiated from an earlier time when the Mexican 
Government owned the mines. With Mr. Gomez in power, in 2005 
steelworkers at the Sicartsa mill, Mexico's largest steel producer, 
went on strike and finally gained a 42-percent increase in wages and 
benefits that reflected the market boom in basic metals.\7\
---------------------------------------------------------------------------
    \6\ ``Exigen a AHMSA sindicalizar a subcontratados'' (translation: 
Demand that AHMSA unionize subcontractors), El Siglo de Torreon, June 
29, 2004.
    \7\ ``Huelga en Sicartsa, por `anomalias' de Villacero'' 
(translation: Strike in SICARTSA over ``anomalies'' of Villacero), La 
Jornada Michoacan, 1 August 2005; Termina huelga en la siderurgica 
Sicartsa que duo mes y medio'' (translation: Strike at SICARTSA that 
lasted a month and a half ends), EFE, September 19, 2005; ``Sindicato 
minero gano en conflictos'' (translation: Miners' union wins in 
conflicts), Excelsior, February 23, 2007. See ``CEREAL, a cien anos de 
cananea: el protagonismo minero bajo el acoso del estado Mexicano'' 
(translation: A hundred years after Cananea, the mineworkers' actions 
under attack by the Mexican state), December 2006.
---------------------------------------------------------------------------
    In addition, Gomez recognized the need to forge international 
alliances with mining unions in other countries to counter an industry 
increasingly dominated by large multinational companies. Los Mineros 
became active in the International Metalworkers Federation and entered 
into a strategic alliance with the United Steel Workers.\8\ When the 
USW struck Asarco in July 2005, Los Mineros held a 1-day nationwide 
solidarity strike.\9\
---------------------------------------------------------------------------
    \8\ Gomez's actions brought him into conflict with the PRI-
dominated national union body, the Labor Congress, which favored a more 
conciliatory approach. Gomez upset the party leadership by opposing 
proposed labor law reforms which, he argued, would impose labor 
flexibility measures on workers with little in return. On February 15, 
2006, a group of dissident unions, including Los Mineros, split off 
from the Labor Congress. See ``Fractura en el CT; entre golpes 
eligieron a dos lideres'' (translation: Rupture in the CT; two leaders 
elected amid blows), La Jornada, February 16, 2006.
    \9\ See ``Normalidad en Grupo Mexico tras huelga en apoyo a otros 
mineros'' (translation: Situation normal at Grupo Mexico after strike 
in support of other mineworkers) EFE, August 16, 2005.
---------------------------------------------------------------------------
    Finally, Gomez was able to help bring closure to a protracted 15-
year court battle between Los Mineros and the company, Grupo Mexico, 
over moneys owed to the union by the company.\10\ When the Cananea and 
Nacozari mines were privatized in 1990, as part of the privatization 
agreement Grupo Mexico was required to pay 5 percent of the purchase 
price into a trust fund to be administered by Los Mineros in accordance 
with the union's bylaws.\11\ The company simply refused. Los Mineros 
sued, but it was not until Gomez took over and carried out a strike in 
2004, that the company, after a court order, agreed to pay the funds 
into the union trust.\12\
---------------------------------------------------------------------------
    \10\ Grupo Mexico, which is owned by the Larrea family, is the 
third largest copper producer in the world with major holdings in Peru, 
including the Southern Peru Copper Company, as well as the largest 
copper mine in Mexico, the Cananea mine. All told, Grupo Mexico owns 11 
mines in Mexico, many acquired through government privatization. It 
also owns Asarco, a mining company with properties in Arizona and 
Texas.
    \11\ See International Metalworkers' Federation (``IMF''): Report 
of IMF Fact Finding Mission to Mexico at (2006); see also IMF complaint 
to the ILO Committee on Freedom of Association, Case No. 2478.
    \12\ See ``Guerra minera'' (translation: Mine war), El Norte, July 
6, 2007.
---------------------------------------------------------------------------
    What ensued was a campaign by the GOM and Grupo Mexico to 
eviscerate the union's hard-fought gains and to strip all power from 
Gomez in his leadership position. The result has been continued labor 
strife, the wrongful killings of union members, and the willful 
ignoring of mine safety, which lead to a terrible explosion in 2006 
that left 65 miners dead at Grupo Mexico's Pasta de Conchos mine.
GOM's Illegal Ouster of Gomez as Head of Los Mineros
    The GOM illegally ousted Gomez and the entire executive committee 
on February 17, 2006. At that time the GOM also froze all union assets, 
as well as the personal assets of Gomez. The alleged basis for the 
removal was a letter from members of the union's oversight committee 
\13\ to the Labor Secretariat alleging embezzlement of the trust fund 
moneys. The GOM's action was not made public until February 28, after 
Gomez had denounced the Government for ``industrial homicide'' in the 
deaths of 65 mineworkers at Pasta de Conchos.\14\
---------------------------------------------------------------------------
    \13\ The oversight committee is termed the Vigilance and Justice 
Commission of Los Mineros.
    \14\ See ``Gomez Urrutia acusa a Minera Mexico de `homicidio 
industrial' y mentir a deudos'' (translation: Gomez Urrutia accuses 
Grupo Mexico of ``industrial homicide'' and lying to the survivors), La 
Jornada, February 28, 2006; see also ``La STPS desconoce a Gomez 
Urrutia como dirigente nacional de mineros'' (translation: The STPS 
derecognizes Gomez Urrutia as national leader of the mineworkers), La 
Jornada, March 1, 2006.
---------------------------------------------------------------------------
    Gomez was not restored to office until April, 2007, when a Mexican 
Federal court ruled that the signatures on the letter used to remove 
him were forged and ordered the Secretary of Labor to officially 
recognize Gomez as the General Secretary of Los Mineros.\15\
---------------------------------------------------------------------------
    \15\ See ``Mexican Court Reinstates Union Leader,'' Associated 
Press, April 11, 2007; ``Court Orders Restoration of Gomez U.,'' El 
Universal, April 12, 2007.
---------------------------------------------------------------------------
    The GOM's action was a blatant violation of Mexican and 
international labor law. First, under Mexican labor law, the election 
and removal of union officers is governed by union constitutions. The 
constitution of Los Mineros states that officers can be removed for 
malfeasance only by the union's national convention and only following 
an investigation and trial conducted by the union's Vigilance and 
Justice Commission. That did not occur here.\16\
---------------------------------------------------------------------------
    \16\ The Vigilance and Justice Commission had no legal authority to 
elect a new slate of officers--this may be done only by the union 
convention. See Submission of the United Steelworkers to the National 
Administrative Office under the North American Agreement on Labor 
Cooperation, November 9, 2006.
---------------------------------------------------------------------------
    Second, the GOM has a longstanding practice requiring government 
authorization for union officials to enter into contracts. The infamous 
``toma de nota'' (the name given to the authorization) obviously 
interferes with union governance and thus is subject to political 
manipulation. Such a requirement violates the International Labor 
Organization Convention No. 87, which mandates that public authorities 
refrain from any interference that would impede the right of unions to 
elect their representatives and to organize and conduct their 
activities and programs.\17\
---------------------------------------------------------------------------
    \17\ The GOM is a signatory to ILO Convention No. 87. The 
International Metalworkers Federation filed a complaint with the ILO 
Committee on Freedom of Association in October 2006 (ILO Case No. 
2487), claiming violations of the Convention by the GOM in its dealings 
with Gomez and Los Mineros.
---------------------------------------------------------------------------
    Third, the underlying allegation which formed the basis for his 
ouster from the union by the Labor Secretariat--embezzlement of the 
union trust fund--was a blatant fabrication.\18\ On April 11, 2007, a 
Mexican Federal court found signatures on the letter at issue were 
forged. A unanimous three-judge panel ordered the Secretary of Labor, 
Javier Lozano Alarcon, to officially recognize Gomez as the General 
Secretary of Los Mineros. The court specifically found that the Labor 
Secretariat had overstepped its authority and failed to comply with 
established procedures.\19\ Indeed, in a bizarre twist that indicates 
an attempt to tamper with the evidence, the key documents used to 
allege the forgery actually were stolen from the Federal prosecutor's 
office.\20\ While copies were made which were then shown to be 
forgeries, the theft of the original forged documents essentially means 
that no one could be prosecuted for the forgery.
---------------------------------------------------------------------------
    \18\ See ``PGR Confirms That Elias Morales Falsified a Signature to 
Replace Gomez-Urrutia,'' La Jornada, April 10, 2007.
    \19\ See ``Mexican Court Reinstates Union Leader,'' Associated 
Press, April 11, 2007; ``Court Orders Restoration of Gomez U.,'' El 
Universal, April 12, 2007.
    \20\ See ``Evidence of Forgery Pilfered From PGR,'' El Universal, 
April 14, 2007.
---------------------------------------------------------------------------
New Pro-Company Union Results in Labor Strife and Union Members Killed 
        in Strike
    When the GOM illegally ousted Gomez and the executive committee, it 
replaced them with a new slate headed by Elias Morales, a former union 
member. Morales proceeded to renegotiate a number of union contracts on 
terms more favorable to the companies.\21\ Morales also purged union 
members who supported Gomez.\22\
---------------------------------------------------------------------------
    \21\ See ``La negociacion de contratos, con Elias'' (translation: 
The negotiation of contracts, with Elias, Milenio, January 19, 2007; 
``Continuan disputas en el sindicato minero'' (translation: Disputes in 
mineworkers' union continue), El Economista, 1 February 2007.
    \22\ See ``Estalla violencia en al 14,'' (translation: Violence 
flares in Section 14), Zocalo, January 13, 2007; ``Despiden a 7 
mineros; denuncian represion de Minera Mexico,'' (translation: Seven 
miners fired; they denounce repression in Grupo Mexico), Zocalo, 14 
January 2007.
---------------------------------------------------------------------------
    The union fought back against the government's interference. In 
response to the attacks on Gomez and the union leadership, the union 
called a nationwide strike. In the town of Lazaro Cardenas workers 
struck the largest steel mill in Mexico, Sicartsa. As thousands 
gathered in the streets in support, Federal and State police surrounded 
the strikers and on April 20, 2006, shot and killed two union members--
Jose Luis Castillo Zuniga and Hector Alvarez Gomez--and many were 
injured.\23\
---------------------------------------------------------------------------
    \23\ See ``Steel Workers in Mexico Clash With Police,'' 
upsidedown.org, April 26, 2006.
---------------------------------------------------------------------------
    The GOM's National Human Rights Commission investigated the 
killings and found that (1) the police operation was not approved by 
the courts in direct violation of the Mexican Constitution, (2) the 
police engaged in excessive force,\24\ and there was a lack of 
diligence and professionalism in investigating the excessive force 
used.\25\ No one has ever been charged.
---------------------------------------------------------------------------
    \24\ The National Human Rights Commission found that excessive 
force resulted in two workers killed, 21 wounded by gunfire, and 33 
others injured. On the other hand, the police sustained only minor 
injuries. See National Human Rights Commission: Recommendation 037/
2006, Oct. 11, 2006.
    \25\ National Human Rights Commission: Recommendation 037/2006, 
Oct. 11, 2006.
---------------------------------------------------------------------------
Grupo Mexico's Continued Efforts to Break Los Mineros
    With Gomez on the defensive, Grupo Mexico used its control over his 
government-appointed replacement, Elias Morales, to slash payrolls, 
wages, and benefits. At the La Caridad mine in Nacozari, Grupo Mexico 
broke its contract with the union in the summer of 2006 and fired 900 
of its 1,300 workers. The company then rehired some of the workers as 
contractors with lower pay and no benefits, while carefully screening 
out supporters of Gomez.\26\ When workers who had been fired attempted 
to meet with company officials on August 11, 2007, they were attacked 
and one union member, Reynaldo Hernandez Gonzalez, was shot and 
killed.\27\
---------------------------------------------------------------------------
    \26\ See ``Termina Grupo Mexico relacion con mineros de Sonora'' 
(translation: Grupo Mexico terminates its relation with miners in 
Sonora), La Jornada, June 10, 2006; ``Comienza GM la recontratacion de 
ex obreros en la mina La Caridad'' (translation: GM begins rehiring 
exworkers at the La Caridad mine), La Jornada, August 2, 2006.
    \27\ See ``Mexico Mine Disputes Intensify; Miner Killed In Clash,'' 
Dow Jones Newswires, 13 August 2007; ``One Dead After Miners Fight at 
Mexico Copper Pit,'' Reuters, 12 August 2007.
---------------------------------------------------------------------------
    After these efforts to oust Los Mineros failed, Grupo Mexico began 
setting up company unions to further undermine that union.\28\ The 
Federal Labor Board ordered ``elections'' in eight Grupo Mexico mines 
across the country with only 36 hours notice to Los Mineros. Workers 
were locked in the mines, intimidated, and forced to cast their votes 
publicly in front of Grupo Mexico officials.\29\ Los Mineros is 
appealing this ham-fisted power grab by Grupo Mexico.
---------------------------------------------------------------------------
    \28\ See ``Mexico's Cananea Copper Miners To Set Up New Union--
Report,'' Dow Jones Newswires, July 12, 2007; ``Labor Unions Demand 
Mexico Drop Charges Vs Miners Leader,'' Dow Jones Newswires, September 
5, 2007; ``Otorgan toma de nota a otro sindicato minero'' (translation: 
Toma de nota authorized for another miners' union), Milenio, November 
1, 2007; ``Consigue registro cuarto sindicato minero'' (translation: 
Fourth mineworkers' union obtains registration), El Imparcial, November 
6, 2007.
    \29\ CEREAL Bulletin, September 4, 2007. The GOM's undemocratic 
practice of forcing workers to vote publicly in union elections has 
continued despite the lack of any legal foundation and despite the 
Joint Declaration signed by the U.S. and Mexican Labor Secretaries in 
which Mexico pledged to ``promote secret ballots and neutral voting 
places.'' Agreement on Ministerial Consultations, U.S. NAO Submissions 
9702 and 9703, May 18, 2000.
---------------------------------------------------------------------------
The Pasta de Conchos Coal Mine Disaster: A Ticking Time Bomb Waiting to 
        Explode
    On February 19, 2006, an explosion of methane gas in Grupo Mexico's 
Pasta de Conchos coal mine in the north of Mexico brought into sharp 
focus what is at stake in this labor battle. Sixty-five miners were 
trapped inside. To date, the bodies of 63 dead have not been 
recovered.\30\ After the explosion, Gomez spoke out forcefully, 
accusing Grupo Mexico and the Minister of Labor of ``industrial 
homicide.''
---------------------------------------------------------------------------
    \30\ In December 2006, Grupo Mexico summarily fired all of its 
union employees at Pasta de Conchos and replaced them with independent 
contract employees. See ``Pierden derechos con tal de trabajar'' 
(translation: Right to work is lost), Excelsior, 16 January 2007; 
``Emplean a novatos en mina'' (translation: Newcomers hired at mine) 
Excelsior, 17 January 2007.
---------------------------------------------------------------------------
    Several investigations were conducted, including one by a special 
committee of the Mexican Legislature.\31\ The investigations uncovered 
a pattern of negligence and gross omission. For instance, the National 
Human Rights Commission (CNDH) found that the Labor Secretariat was 
responsible for failing to properly provide adequate resources to 
enforce mine safety and for allowing Grupo Mexico to operate despite so 
many mining safety violations.\32\ The special investigative committee 
of the Mexican Congress, in a report presented last month, reached the 
same conclusions,\33\ as did the Labor Secretariat's own report on the 
disaster.\34\
---------------------------------------------------------------------------
    \31\ Informe de la comision especial para conocer las 
responsabilidades y origen de la tragedia de la mina Pasta de Conchos, 
de resultados finales de las investigaciones objeto de este organo 
legislativo, Gaceta Parlamentaria, Camara de Diputados, numero 2308-I, 
martes 31 de julio de 2007.
    \32\ Comision Nacional de Derechos Humanos, Recomendacion No. 26/
2006, Sobre el caso de los trabajadores de la empresa industrial Minera 
Mexico, S.A. DE C.V. (Unidad Pasta de Conchos), 17 July 2006.
    \33\ See Attachment A, Conclusions of the Special Congressional 
Committee to Determine the Responsibility for the Explosion at Pasta de 
Conchos Mine (Mexican Legislature).
    \34\ ``Arbitrators Order Mexican Miners Back to Work,'' San Antonio 
Express-News, August 8, 2007.
---------------------------------------------------------------------------
    In fact, the mine had a history of serious violations.\35\ In July 
2004, Federal inspectors found numerous safety violations, including, 
most critically, failure to use antistatic powder that prevents machine 
sparks from igniting a methane gas explosion, as well as other 
potential fire hazards. Apparently, none of these violations was 
corrected.\36\ In February 2006, just 2 weeks before the disaster, the 
inspectors determined that Grupo Mexico had not taken several required 
corrective measures, most importantly measures to contain methane gas 
within acceptable levels and the use of antistatic powder to contain 
sparking that could ignite methane gas. See Attachment A: ``Conclusions 
of the Special Congressional Committee to Determine the Responsibility 
for the Explosion at Pasta De Conchos Mine'' (Mexican Legislature).
---------------------------------------------------------------------------
    \35\ In the 6 years prior to the 2006 explosion, it was reported 
that the Federal Government had found 188 safety violations at Pasta de 
Conchos. See ``Gov't. Was Aware of Safety Violations.'' El Universal, 
26 February 2007.
    \36\ See ``Gov't. Was Aware of Safety Violations.'' El Universal, 
26 February 2007.
---------------------------------------------------------------------------
Trumped Up Corruption Charges Brought to Silence Gomez
    On March 2, 2006, the GOM brought criminal charges for alleged 
fraud and embezzlement of the $55 million Los Mineros trust fund.\37\ 
The GOM froze the bank accounts of Los Mineros and Gomez and seized his 
personal property. Fearing for the safety of himself and his family, 
Gomez took refuge in Canada, where he remains.
---------------------------------------------------------------------------
    \37\ See ``Investiga la PGR a Gomez Urrutia por corrupcion, informa 
Presidencia'' (translation: The PGR is investigating Gomez Urrutia, 
says the Presidency), La Jornada, March 3, 2007.
---------------------------------------------------------------------------
    Over the past year, the GOM's legal case against Gomez has slowly 
collapsed.\38\ In October of 2007, a Mexican Federal Court acquitted 
Gomez of criminality with regard to the trust fund.\39\ The GOM, 
however, continues its attack by appealing this decision. Likewise, 
similar charges were rejected by state courts \40\ or simply abandoned 
by prosecutors.\41\
---------------------------------------------------------------------------
    \38\ For instance, state claims that the $55 million trust was 
created on behalf of the workers at the privatized mines and not the 
union--have been systematically rejected by the courts, which have held 
that the funds were rightfully the union's property. See ``Napo gana en 
definitiva la libertad via amparo'' (translation: Napo definitively 
wins freedom on appeal), Milenio, June 14, 2007.
    \39\ See ``Mexican Union Leader Cleared of Graft,'' San Antonio 
Express-News, 18 October 2007.
    \40\ See ``Napo gana en definitiva la libertad via amparo'' 
(translation: Napo definitively wins freedom on appeal), Milenio, June 
14, 2007
    \41\ See ``Gomez Urrutia, exculpado de fraude contra el gremio 
minero'' (translation: Gomez Urrutia exonerated of fraud against 
miners' union), La Jornada, June 8, 2007.
---------------------------------------------------------------------------
    Additionally, an independent audit conducted by the Swiss auditing 
firm of Horwath Berney, S.A.\42\ determined that all of the trust fund 
moneys were accounted for and that payments made from the trust fund 
were made with the approval of the union's executive committee, as 
required by the original privatization agreement.
---------------------------------------------------------------------------
    \42\ Horwath Berney Audit S.A: Special review of the use of funds 
received by Los Mineros from Grupo Mexico, August 3, 2007. The study 
was conducted on behalf of the International Metalworkers' Federation.
---------------------------------------------------------------------------
Conclusion
    The USW urges the GOM to drop its appeal of the acquittal by the 
Mexican Federal Court, which, as described above, cleared Gomez of 
wrongdoing and instead to let Gomez return home to resume his duties as 
the head of Los Mineros without fear of further persecution. As 
discussed above, in April 2007 a Federal court in Mexico ruled that 
Gomez was improperly removed as head of the union and has ordered him 
reinstated.
    Mexico needs strong, independent union leaders to honestly 
represent workers and fight for their well-being and dignity and to 
prevent tragic disasters. Gomez is such a leader. It seems evident that 
labor strife and serious safety problems will continue if independent 
union leaders like Gomez are not permitted to conduct lawful union 
activities. In fact, a report issued this week about the mine safety 
issues at Grupo Mexico's Cananea copper mine shows that the GOM is 
still not enforcing basic mine safety, and that workers' health and 
lives are being needlessly jeopardized. See Attachment B: ``Executive 
Summary of Cananea Mine Safety Report by the Maquiladora Health and 
Safety Support Network'' (MHSSN) available at http://mhssn.igc.org/
CananeaOHSReport.pdf. Mexican mine workers deserve better.
    Congress should not provide funding for Plan Mexico until Gomez is 
permitted to return to Mexico without fear of further politically 
motivated retribution. The USW urges Congress to hold hearings on 
violations of labor rights and human rights in Mexico to allow for the 
victims of this and other cases to speak to you directly. Intimidation 
and violence against workers and unions and reckless indifference to 
safe working conditions should be part of Mexico's past, not its 
future.
  attachment a--conclusions of the special congressional committee to 
determine the responsibility for the explosion at pasta de conchos mine 
                         (mexican legislature)
    The following conclusions were presented to the Chamber of Deputies 
on October 3, 2007:

    1. The established hypothesis of an event caused by negligence and 
omission was proved, and responsibility was established
    2. The tragedy of the Pasta de Conchos Mine was the product of a 
great explosion caused by an excessive concentration of methane gas and 
coal dust, which caused the collapse of practically the entire mine.
    3. The presence of methane gas was a product of the negligence and 
omission of the company holding the concession [Grupo Mexico], based on 
the following considerations:

          a. Failure to complete the blocking off of the old passages 1 
        East and West, which generated the concentration of methane;
          b. The lack of continuous spraying to avoid the suspension of 
        coal dust, which is a highly flammable material;
          c. Inadequate spreading of antistatic powder throughout the 
        entire mine;
          d. Inefficient ventilation;
          e. The lack of sufficient methane meters, which had been 
        requested repeatedly by the Joint Safety and Health Committee; 
        and
          f. The failure to isolate high-voltage electrical lines 
        inside the mine, as well as the failure to isolate the control 
        panels and to keep them clean, as reflected in the Minutes of 
        the Joint Safety and Health Committee.

    4. There was no system of internal communication within the mine, 
resulting in the trapped group of miners being cut off and the failure 
of the watchman to notify the mine manager until 30 minutes after the 
explosion. The manager, in turn, did not notify the Federal and State 
authorities until after 7 in the morning.
    5. There were no emergency exits or alarm systems, which would have 
given the trapped miners a better chance of survival.
    6. The authorities of the Federal Labor Delegation in Coahuila 
committed serious and culpable negligence and omission by ignoring the 
noncompliance with safety measures by the concession holder Industrial 
Minera Mexico, S.A. de C.V., which cut short the lives of the workers 
on the third shift. They have administrative and criminal 
responsibility for not carrying out their duty as established by the 
Political Constitution of the United Mexican States, the Federal Law of 
Administrative Responsibility of Public Functionaries, the Federal 
Labor Law and other applicable norms.
    7. The Secretariat of the Economy did not comply with its duties 
established in the Mining Law (articulo 7, fraccion XII, 53 y 58); and 
concealed the reports of the Mexican Geological Service concerning the 
compliance by the concession holder Industrial Minera Mexico with 
safety norms at the Pasta de Conchos Mine.
    8. There is responsibility on the part of Industrial Minera Mexico, 
and therefore of Grupo Mexico, as the parent company of IMMSA with 
mutual responsibility, and of General de Hulla, in the deaths of the 
Pasta de Conchos miners.
    9. The Federal Labor Delegation in the State of Coahuila is also 
responsible for the deaths of the miners at Pasta de Conchos.
    10. There is responsibility on the part of the Secretariat of Labor 
and Social Welfare and the Secretariat of the Economy, for 
noncompliance with their duties, which is subject to the sanctions 
established in the Political Constitution of the United Mexican States 
in its Article 109 and 110, the Law of Administrative Responsibilities 
of Public Functionaries, the Federal Penal Code and applicable 
legislation.
    11. From the Recommendation No. 26/2006 of the CNDH we infer the 
responsibility of the Mexican State for the negligent behavior of the 
public servants of the STPS, Coahuila Delegation. For this reason the 
CNDH recommends the payment of compensation to the families of the 
deceased workers. It should be mentioned that this recommendation was 
accepted on behalf of the STPS by the responsible officials. 
Nonetheless as of today the corresponding payments have not been made, 
with the result that the families have been forced to file lawsuits in 
the Federal Tribunal of Fiscal and Administrative Justice. It is 
necessary to state that this Special Commission infers that the 
recommendation of the CNDH is correct in the facts that it establishes 
and in the corresponding legal conclusions. For this reason we concur 
that the State must take responsibility based on the negligence of the 
aforementioned public servants.
 attachment b--executive summary of cananea mine safety report by the 
             maquiladora health and safety support network
    An independent team of safety and health professionals organized by 
the Maquiladora Health and Safety Support Network (MHSSN) conducted an 
inspection of the Cananea mine from October 5-8, 2007, and performed 
tests on a sample population of 68 workers (available at http://
mhssn.igc.org/CananeaOHSReport.pdf). The conclusion of the survey team 
is that there are serious health and safety hazards at the Cananea mine 
that require immediate attention and other that require long-term 
corrections in order to protect workers at the facility from both 
instantaneous accidents and chronic exposures generating occupational 
diseases. The MHSSN investigation revealed:

  <bullet> The conditions observed inside the mine and processing 
        plants, and the work practices reported by the interviewed 
        workers, paint a clear picture of a workplace being 
        ``deliberately run into the ground.'' A serious lack of 
        preventive maintenance, failure to repair equipment and correct 
        visible safety hazards, and a conspicuous lack of basic 
        housekeeping has created a worksite workers have been exposed 
        to high levels of toxic dusts and acid mists, operate 
        malfunctioning and poorly maintained equipment, and work in 
        simply dangerous surroundings.
  <bullet> The deliberate dismantling of dust collectors in the 
        concentrator area processing plants by Grupo Mexico 
        approximately 2 years ago means that workers in these areas 
        have been subjected to high concentrations of dust containing 
        23 percent quartz silica, with 51 percent of sampled dust in 
        the respirable particle-size range, protected only by 
        completely inadequate personal respirators. Occupational 
        exposures to silica can lead to debilitating, fatal respiratory 
        diseases including silicosis and lung cancer.
  <bullet> Semiquantitative calculations indicate workers in the 
        concentrator area are exposed to dust levels of at least 10 
        milligrams per cubic meter of air (mg/m<SUP>3</SUP>). The 
        respirable quartz silica component of this dust would be at 
        least 1.2 mg/m<SUP>3</SUP>, or 10 times greater than the 
        Mexican maximum permissible exposure limit (LMPE) of 0.1 mg/
        m<SUP>3</SUP>. Without any operating dust collection equipment, 
        workers in the concentrator area must be provided with powered 
        air-purifying respirators (PAPRs), or supplied-air respirators 
        in continuous flow mode, to protect them against inhalation 
        exposures to silica dust, instead of the paper filtering face 
        pieces currently in use.
  <bullet> Implementation of Grupo Mexico's overall safety program at 
        the mine has not resulted in effective, comprehensive 
        protection of workers. There are serious health and safety 
        hazards created by industrial-scale mining, crushing and 
        pulverizing, acid leaching and electro-plating, and milling 
        operations to produce fine powder copper ore from a huge open-
        pit, hard-rock mine. The required Joint Management-Labor Safety 
        Committee is small--six members total--and unable to conduct or 
        oversee effective safety inspections, hazard corrections, 
        accident investigations, and employee training.
  <bullet> Grupo Mexico has not conducted sufficient industrial hygiene 
        monitoring to identify, evaluate, and later control health 
        hazards to miners including exposure to mineral dusts 
        (including silica), acid mists, airborne solvents, high noise 
        levels, high vibration levels, hot and cold conditions. The 
        employer has failed to inform, as required by Mexican law, 
        monitored employees of their measured exposures to hazardous 
        substances.
  <bullet> Grupo Mexico has not conducted a comprehensive medical 
        surveillance program to determine the health status of workers 
        exposed to airborne contaminants (silica, heavy metals like 
        lead, acid mist, solvents) and physical hazards such as noise 
        and vibration. The employer has failed to inform, as required 
        by Mexican law, the few workers who have been examined of the 
        results of the medical tests.
  <bullet> Grupo Mexico has not provided the training required by 
        Mexican law to workers with hazardous exposures that trigger 
        the training requirement. Despite high noise levels, exposure 
        to chemicals, and exposures to energized machines, 91 percent 
        of the interviewed mines had not received noise training, 58 
        percent had not received chemical hazards training, 70 percent 
        had not received electrical hazards training, and 75 percent 
        did not get training on lockout/tagout procedures for operating 
        and repairing energized equipment.
  <bullet> Grupo Mexico has failed to install effective ventilation and 
        source pollution controls in the two ESDE plants to prevent 
        hazardous exposures to sulfuric acid mists to workers. One 
        marker of the levels of acid mist is that the floors and 
        structural steel frame of ESDE II building have been eaten away 
        by highly concentrated acid mist.
  <bullet> In addition to disassembling or failing to install effective 
        local exhaust ventilation to reduce worker exposure to airborne 
        contaminants, Grupo Mexico has relied on personal protective 
        equipment (PPE), inappropriate N-95 paper respirators, to 
        protect workers from particulates, acids and vapors. Moreover, 
        respirator users have not been medically evaluated, fit-tested 
        and trained in the use of the PPE.
  <bullet> Although the OHS survey team could not verify the exact 
        circumstances of the 50 separate accidents reported to have 
        occurred onsite in the last 12 months, the anecdotal reports of 
        broken limbs, amputations, electrocutions, falls, burns, and at 
        least one fatality, suggest these incidents were the result of 
        unsafe working conditions, poorly maintained machinery and 
        equipment, and inadequate safety procedures. Such root causes 
        of the reported accidents would closely coincide with the 
        onsite observations of the OHS survey team.
                                 ______
                                 

Responses of Assistant Secretary Thomas Shannon to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question 1. In the Joint Declaration dated October 22, 2007, the 
United States and Mexican Governments announced this aid as the first 
installment of a multiyear $1.4 billion aid package. Over how many 
years is the aid projected to last? What is the breakdown for the 
succeeding 2 years?

    Answer. We currently envision the Merida Initiative as a 3-year 
package of security cooperation with Mexico. We have asked Congress for 
$500 million for Mexico in the fiscal year 2008 emergency supplemental. 
The fiscal year 2009 foreign assistance budget is still under 
discussion with OMB. We look forward to reviewing it with you once it 
is presented to the Congress.

    Question 2. The administration frames this as a 3-year security 
cooperation package, but I understand that the Mexican Government views 
this as the beginning of a long-term financial commitment by the United 
States. Assuming Congress funds the proposal at the President's 
requested level ($1.4 billion), would you expect the financial 
component of U.S. assistance to cease at the end of the 3-year period? 
If not, what sort of assistance do you envision beyond 3 years?

    Answer. The Merida Initiative is a 3-year security cooperation 
package. It responds to a request made by the Government of Mexico and 
has a specific set of goals and objectives. We believe the Merida 
Initiative will foster even closer ongoing, cooperative relations 
between the United States and Mexico. This may require some 
expenditures above the baseline of recent years, but we do not 
anticipate an ongoing financial component of the magnitude we are 
proposing now.

    Question 3a. The joint statement notes that Mexico has increased 
its security spending aimed at drug trafficking networks to $2.5 
billion annually.
    In total, what is the Mexican Government contributing from its 
budget to combat drug trafficking and major criminal organizations?

    Answer. Out of an approximate overall security budget for 2007 of 
$7 billion (depending on exchange-rate variations), the Government of 
Mexico is dedicating approximately $2.4 billion to the fight against 
organized crime and drug trafficking. It is important to remember that 
the states and municipal governments expend far greater amounts on 
security and law enforcement, since they have primary jurisdiction. 
According to the Embassy of Mexico, the Federal budget for 2007 
includes funding directed to the fight against organized crime in the 
following areas, in millions of dollars:

National Council Against Addictions...............................  78.6
Ministry of Communications and Transport..........................  10.2
Customs...........................................................  11.7
Financial Intelligence Unit.......................................   5.1
Ministry of the Interior.......................................... 277.7
Ministry of National Defense...................................... 131.8
Ministry of the Navy..............................................  21.1
Office of the Attorney General....................................  36.5
Public Security Support Fund (FASP)............................... 459.3
Ministry of Public Security....................................... 1,255
    Federal Preventive Police--(433.7)                                  
    Prevention and Social Rehabilitation--(222.5)                       
    Executive Secretariat of the National Public Security System--
      (106)                                                             
    Other areas (including Security Council and Minors Council)--
      (492.8)                                                           
                                                                  ______
      Total....................................................... 2,386

    Question 3b. Has it committed to this level of funding--or even 
increased funding--for the next 2 or 3 years?

    Answer. President Calderon has publicly stated that restoring 
public safety and security is the top priority of his administration. 
As such, he has committed to taking those steps necessary to ensuring 
this priority.

    Question 3c. In Colombia, an additional tax was imposed to fund 
programs for ``Plan Colombia.'' Is Mexico seeking additional revenue 
sources domestically to pay for increased security efforts?

    Answer. According to published Government of Mexico (GOM) figures, 
spending for 2008 on the Ministry of Public Security will increase by 
39.4 percent, for the Ministry of Defense by 4.6 percent, for the Navy 
by 2.1 percent, for the Office of the Attorney General by 6 percent, 
and the Secretariat of the Interior by 28 percent. More detailed 
breakdowns for component agencies and specific projects are not yet 
available.
    GOM revenues for 2008 will increase by 1.2 percent of GDP, or 
approximately USD 11.7 billion, as a result of tax changes in the 
Public Finance Reform legislation, which was approved September 2007.

    Question 4. Your testimony failed to provide any detail to a key 
question: What will success look like? Beyond amorphous goals of 
``reduced violence'' and increased stability, can you provide specific 
performance metrics that we intend to achieve? Please provide a 
detailed list of goals and performance metrics for this package.

    Answer. The fight against organized crime and drug trafficking in 
Mexico and Central America is tough, complex, and long term. The 
commitment made by these countries is significant, and their 
democratically elected governments will be held to account by voters. 
The metric used by the citizens of Mexico and Central America will be 
palpable and reflect their individual experiences: Can they win back 
control of their communities and institutions, and build lives free of 
intimidation and fear?
    Our role in this great struggle is specific and immediate. In the 
short term, we will determine the effectiveness of the Merida 
Initiative by:

  <bullet> Increased arrests of drug traffickers and gang members, and 
        the harassment and dismantling of organized crime syndicates;
  <bullet> Increased interdiction of illegal drugs and weapons;
  <bullet> Improved effectiveness of the national judicial systems, 
        leading to a reduction in criminal case backlogs, a reduction 
        in the average length of trials, and increased confidence in 
        the courts;
  <bullet> Improved law enforcement cooperation across institutional 
        and national boundaries, leading to greater coordination of 
        police action, and the ability to pursue and arrest criminals 
        throughout Mesoamerica.

    In the long term, we will measure the effectiveness of the Merida 
Initiative by its ability to transform the tone and substance of our 
bilateral and regional cooperation. The Merida Initiative represents a 
new and innovative method to address shared responsibilities and shared 
challenges. Its success, or failure, will shape the future of our 
relationships.

    Question 5. Many of the criminal organizations in Mexico fund 
themselves through the drug trade. If one of the major goals of the 
initiative is to dismantle these criminal organizations, shouldn't 
another logical goal be reduced drug trade and flow into the United 
States? If so, given your expectation that our assistance will lead to 
``significantly reduced violence,'' how much concomitant reduction in 
drug flow to the U.S. can we expect to see?

    Answer. We strongly believe that by assisting Mexico and the 
countries of Central America in confronting drug trafficking and 
criminal organizations--as well as helping them strengthen their state 
institutions--a reduction of illicit drugs flowing into the United 
States from Mexico and Central America is likely.
    The four primary goals of the Merida Initiative are to (1) break 
the power and impunity of criminal organizations in Mexico and Central 
America; (2) assist the Governments of Mexico and Central America in 
strengthening border, air, and maritime controls from the Southwest 
border of the United States to Panama; (3) improve the capacity of 
justice systems in the region to conduct investigations and 
prosecutions, implement the rule of law, protect human rights, and 
sever the influence of incarcerated criminals with outside criminal 
organizations; and (4) curtail gang activity in Mexico and Central 
America and diminish the demand for drugs in the region.
    The Merida Initiative is a key component in the U.S. Government's 
efforts to enhance security and the rule of law in the region. These 
include cooperation with other governments in the hemisphere to reduce 
the production and trafficking of, as well as demand for, illegal 
drugs. In the Western Hemisphere, these programs include the Southwest 
Border Counternarcotics Strategy, joint interdiction programs with the 
countries of the Caribbean and the United Kingdom, as well as our 
efforts with our South American neighbors to attack drug production at 
its source.
    The supply of drugs flowing into the United States is, therefore, 
subject to a number of complex factors that are beyond the scope of the 
Merida Initiative. However, by focusing on attacking and dismantling 
the drug trafficking and criminal organizations, strengthening state 
institutions in Mexico and Central America, and reducing the levels of 
demand for drugs throughout the region, it is our hope that a reduction 
in violence, strengthening of state institutions and the rule of law, 
and increased demand reduction will be accompanied by a corresponding 
reduction in the flow of drugs entering the United States from Mexico 
and Central America.
    For our part, it is important to address domestic drug consumption. 
Reducing demand for illegal drugs will be critical to reducing the 
volume of illicit drugs entering the United States. As we implement the 
foreign assistance programs under the Merida Initiative, we are 
coordinating with U.S. agencies engaged in demand reduction.

    Question 6. Senator Menendez pointed out that in 2003 the U.N. 
Committee Against Torture found that the Mexican police commonly use 
torture as a method of criminal investigation, and a report 2 years 
later by the Mexican National Commission on Human Rights reported that 
torture remains widespread in Mexico. What assurance can you provide 
the committee that our assistance, in whatever form, will not be used 
to facilitate these tactics? What assurances have you received from the 
Mexican Government that human rights standards, in general, will be 
respected in the policies and programs supported through this aid 
package?

    Answer. Mexican law prohibits torture and does not allow the use of 
coerced confessions. Nevertheless, it continues to be a serious 
problem. The Mexican Government has taken steps in recent years to 
prevent any unlawful use of torture or coerced confessions by police or 
military personnel.
    In 2003, the Mexican Government promulgated guidelines that require 
prosecutors and other law enforcement personnel to receive training on 
human rights and police practice according to the Manual on the 
Effective Investigation and Documentation of Torture and other Cruel, 
Inhuman or Degrading Treatment or Punishment. This is commonly known as 
the ``Istanbul Protocol'' and was adopted by the Human Rights 
Commission of the United Nations. It establishes assessment, 
investigation, and reporting guidelines and procedures in accordance 
with international human rights standards and international 
instruments.
    The Merida Initiative includes funding to help strengthen and 
expand the Office of Inspector General within the Mexican Attorney 
General's Office, the Office of Professional Responsibility within the 
new Mexican Federal Police, civilian complaint centers, and civilian 
watchdog organizations. These tools will help maintain public 
accountability of law enforcement and justice sector institutions, and 
are strongly supported by the Calderon administration, which has 
recognized the need to enhance their functions.
    In late September 2007, in response to allegations of human rights 
violations, the Mexican military accepted all of the recommendations of 
Mexico's National Commission for Human Rights (CNDH). The Mexican 
Secretariat of Defense affirmed its commitment to collaborating with 
CNDH on all outstanding investigations. In October, a civilian court 
found four soldiers guilty of rape and sentenced them to up to 41 years 
in prison. This represented the first time that military personnel have 
been tried in a civilian court in Mexico.

    Question 7. What lessons have you learned from our assistance 
program in Colombia, and how specifically are these lessons applied to 
the Mexico proposal?

    Answer. There are significant differences between Plan Colombia and 
the Merida Initiative. Plan Colombia had components, such as 
eradication and the fight against armed groups seeking to overthrow the 
state that the Merida Initiative does not have. The Merida Initiative 
is a more focused program with the vast majority of resources flowing 
to civilian institutions.
    We learned several important lessons in Colombia. First, the fight 
against drug trafficking and organized crime is not simply a matter of 
eradication or interrupting the transit of illicit goods. Organized 
criminal organizations today seek to control institutions of the state 
through violence and corruption. To address that, we are working with 
Mexico and the countries of Central America on building institutions 
that respond efficiently and democratically to the legitimate needs of 
communities and cities. These institutions must be transparent and 
accountable if they are to displace organized crime. Our common 
approach with Mexican and Central American partners involves attacking 
not only the leaders of organized crime, but also the financial and 
personal networks these leaders use to manage their criminal 
operations.
    Another lesson is the importance of working with communities to 
counter the negative influence of criminal organizations. This will 
require improved communication by authorities with communities in which 
the fight against organized crime is being conducted.
    Finally, our experience in Colombia has clearly demonstrated the 
importance of committed national leadership, as we have seen in 
President Uribe. President Calderon and his colleagues in Central 
America have also demonstrated strong leadership in confronting these 
threats.

    Question 8. The Government Accountability Office (GAO) recently 
reported that while the Office of National Drug Control Policy (ONDCP) 
had completed a congressionally mandated Southwest Border Strategy, it 
had not completed an accompanying implementation plan. The GAO 
recommended that ONDCP and the U.S. counternarcotics interagency 
community coordinate with the Government of Mexico before it completed 
the implementation plan. How does this initiative relate to the 
Southwest Border Strategy and its implementation plan? Does it supplant 
it? Does it add to it? Are the two plans coordinated with each other?

    Answer. The National Southwest Border Counternarcotics Strategy 
(SWBS) was formally approved by the administration on March 23, 2006. 
An Implementation Working Group (IWG) was subsequently formed under the 
leadership of the Department of Homeland Security Office of 
Counternarcotics Enforcement, and Department of Justice Office of the 
Deputy Attorney General, to oversee the implementation of the 
strategy's objectives. A classified implementation plan was completed 
in the summer of 2007, and following consultations with Congress and 
the Government of Mexico, the National Southwest Border 
Counternarcotics Strategy was announced publicly in October during a 
visit by ONDCP Director Walters to San Diego.
    Although the National Southwest Border Counternarcotics Strategy 
was developed through the interagency process prior to the Merida 
Initiative, we have made sure that the two programs are complementary. 
The SWBS is primarily a domestic coordination plan, focused on what the 
United States can do on its side of the border to reduce the flow of 
illegal drugs. However, key aspects of the strategy include measures to 
enhance border controls and coordinate with the Government of Mexico to 
conduct seizures, investigations, and prosecutions. A key distinction 
between the two initiatives is that the Southwest Border Strategy 
primarily seeks to improve operational coordination, while the Merida 
Initiative provides the tools to improve the Government of Mexico's 
counterdrug and public security capacities, in addition to seeking 
enhanced cooperation in law enforcement and security matters.
    We believe that by coordinating each nation's domestic efforts, 
working jointly through improved cooperation and communication, and 
providing additional resources and support to Mexico and Central 
America under the Merida Initiative, we will have the foundation to 
establish a new, fully integrated framework of cooperation for law 
enforcement partnership throughout this region.

    Question 9. How was this aid package developed and what input did 
the Government of Mexico have? Please be specific.

    Answer. United States-Mexico Process: In March, President Bush 
concluded his five-country visit of Latin America with a meeting with 
President Calderon in Merida, Mexico. Not only did the two of them 
build upon their initial conversation of November 2006, but President 
Bush also carried up the ideas of regional cooperation he had just 
discussed with President Berger in Guatemala.
    In May, Mexican Foreign Minister Espinosa presented the Mexican 
Government's proposal for U.S. Government security cooperation. 
Assistant Secretary Tom Shannon led a group of senior U.S. officials to 
Mexico City to discuss the broad outlines of the request with our 
Mexican counterparts.
    Thereafter, Mexican officials met with U.S. officials from a wide 
variety of agencies. GOM officials presented the broad outlines of 
their plans to combat drug trafficking and related violence. USG 
officials asked questions about how the GOM request supported those 
plans. Over the course of 2 months, validation teams--composed of USG 
experts from among the interagency--traveled to Mexico for several days 
at a time to discuss specific program components with their 
counterparts.
    United States-Central America Process: In March, the President also 
met with President Berger of Guatemala. During that meeting, they 
discussed the need for a comprehensive regional security plan to 
address citizen insecurity in the region.
    The interagency began planning in Washington, while the Central 
American Integration System (SICA) worked to finalize their regional 
security strategy. Assistant Secretary Shannon led the U.S. delegation 
to the first U.S.-SICA Dialogue on Security, where SICA identified drug 
trafficking, illicit trafficking of arms, and gangs as the most 
pressing security concerns.
    The USG interagency community reviewed the SICA request process, 
making use of needs analyses conducted by posts, to develop an 
appropriate response to the Central American threat and needs analysis.
    We will continue to work with SICA and the Central American 
governments as we move forward.

    Question 10. What is the Government of Mexico's strategy for 
attacking the drug trafficking threat in Mexico? How does the aid 
proposal relate to this strategy? Does it simply provide aid in 
furtherance of it, or does it involve changing Mexico's current 
strategy, priorities, and programs?

    Answer. Under President Calderon, the Government of Mexico has 
already taken bold action to confront and dismantle the drug 
trafficking and criminal organizations that have spread violence 
throughout the country. U.S. assistance under the Merida Initiative 
seeks to support Mexico by implementing specific strategies through 
which both governments agree the U.S. can contribute valuable and 
unique assistance.
    Mexico's strategy against these criminal organizations falls under 
four areas: (1) To recover public spaces from the cartels and maximize 
full operational control of Mexican territory; (2) to dismantle the 
drug trafficking and organized crime groups that are threatening public 
order in Mexico; (3) to strengthen the criminal justice organizations 
necessary to apprehend and prosecute the traffickers, and (4) to reduce 
domestic demand for drugs within Mexico.

    Question 11a. The largest single category of assistance for 
Mexico--some 40 percent--is for eight Bell 412 helicopters for the 
Mexican Air Force, and two CASA CN-235-300 maritime patrol aircraft for 
the Mexican Navy. In the past, Mexico has had trouble maintaining U.S.-
provided aircraft. In the late 1990s, 73 UH-1H helicopters were 
returned to the United States as unflyable. More recently, GAO said the 
Department of Defense was discontinuing support for other UH-1H 
helicopters; it also indicated that the Government of Mexico did not 
provide the necessary funding to upgrade the C-26 aircraft surveillance 
capability.
    How were the helicopters and maritime patrol aircraft selected? 
What are the mission requirements for each platform?

    Answer. The GOM determined their mission requirements (range, 
payload, etc.) and identified aircraft that best met those 
requirements. In addition, a USG interagency validation team with 
representatives from the Department of State, the Department of 
Defense, U.S. Coast Guard, and the Department of Homeland Security 
reviewed the Mexican mission analysis and aircraft selection process. 
The present request includes helicopters for the Mexican Army/Air Force 
(SEDENA) and surveillance aircraft for the Navy (SEMAR). The aircraft 
requested in the proposal now before Congress reflects the outcome of 
those working sessions.
    Key requirements identified by SEDENA for the helicopters included: 
Night vision capability; hard points and wiring; cargo hook; armored 
crew seats; state-of-the-art navigation and communication equipment; 
MEDEVAC equipment; sufficient cargo and equipment capacity in Mexico's 
geographic/atmospheric conditions (8,000+ feet altitude); and a robust 
capacity for operational response. The fact that Mexico already 
operates four BH-412 helicopters was another key factor in determining 
which helicopter is the best operational, maintenance, and training fit 
for SEDENA.
    SEMAR defined the requirements for the maritime patrol aircraft as 
including: Electronic cockpit instrument displays; palletized system to 
outfit the aircraft for different missions; Forward Looking Infrared/
Electro-optics (FLIR/EO); Inverted Synthetic Aperture Radar (ISAR) 
system; Automatic Identification System (AIS) receiver; Electronic 
Support Measures (ESM); Flare launch system; and a 2,300 nm range. In 
addition, SEMAR noted that it was interested in an aircraft that lent 
itself to using operational techniques similar to those of the U.S. 
Coast Guard, which is integrating the same aircraft into its fleet.

    Question 11b. How will the Government of Mexico use the aircraft? 
What end-use restrictions will the United States place on the aircraft? 
How will the United States monitor the use of these aircraft?

    Answer. SEDENA's mission for the helicopters is multipurpose, to 
include transporting troops and police to fight organized crime and 
drug trafficking; supporting civilian populations in case of disaster; 
reconnaissance; transporting supplies; undertaking search and rescue; 
MEDEVAC; and providing a surveillance platform for counterterrorism. 
Most importantly, these helicopters will give the Mexican Air Force a 
complete squadron of BH-412 helicopters (the Mexican Air Force has four 
BH-412 helicopters on hand) that can provide mobility to rapid reaction 
forces.
    SEMAR's mission for its maritime patrol aircraft is aerial 
surveillance patrol used to establish better control over maritime 
territorial limits and to deny the use of the eastern Pacific and 
western Caribbean to transnational criminal organizations and 
terrorists.
    The proposed funding source for the acquisition of these aircraft 
for the military is the INCLE account. As such, Mexico is required to 
employ these aircraft in a manner consistent with the agreed purposes 
of the funding. The U.S. will monitor the status of these aircraft to 
determine that they are being used and maintained appropriately and to 
continually be aware of the location of these aircraft. The USG will 
employ onsite visits, reports, and inspections to verify that Mexican 
use of the equipment complies with the purposes of the Merida 
Initiative and letters of agreement between Mexico and the United 
States.

    Question 11c. What are the operational flying rates for the Bell 
412 helicopters currently in service for the Mexican Air Force?

    Answer. SEDENA's operational cost per flight hour is roughly 
US$2,000, which includes fuel, depreciation, and operation time into 
account. During a visit to Santa Lucia Air Base in November, the Bell 
412 squadron indicated that they were able to keep the four aircraft at 
an operational flying rate near 90 percent. One of the aircraft was 
undergoing a 150-hour inspection, and it appeared to be in excellent 
condition. Technicians were performing the maintenance in accordance 
with applicable manufacturer's technical manuals in English.

    Question 11d. What are the operational flying rates for the CASA 
212 aircraft currently in service for the Mexican Navy?

    Answer. SEMAR's operational flying rate for the CASA 212 is 
currently 400 hours per year with a planned increase to 600 hours per 
year.

    Question 11e. The detailed justification states that Mexico's 
short-term objective is to build a fleet of six CASA 235s and seven 
CASA 212s for maritime surveillance. Over what time period is this goal 
expected to be met?

    Answer. SEMAR has not shared an acquisition timeline, although it 
has indicated its need to begin purchasing CASA 235s in the near-term 
if the USG does not provide them. SEMAR has noted that all of its six 
CASA 212-CEs were purchased in 1982 and have an expected remaining 
service life of 6 years, which suggests an urgent need to purchase new 
aircraft.

    Question 11f. Have decisions been made about where these aircraft 
will be based? What role did, or will, the United States have, in 
making such decisions?

    Answer. The Mexican AF has indicated that the Bell 412s will be 
based at Santa Lucia Air Base, near Mexico City. Although the squadron 
is based at Santa Lucia, the aircraft will be deployed throughout 
Mexico to meet operational requirements. Aircraft are deployed with the 
necessary operational, logistics, and maintenance elements to operate 
in the deployed environment. Additionally, if a higher level of 
maintenance skill is required, more skilled teams would be deployed to 
the helicopter location to bring the aircraft to an operational 
condition.
    SEMAR has 25 years experience working with CASA 212-CEs, operating 
them out of three bases--La Paz, Baja California Sur; Veracruz, 
Veracruz; Tapachula, Chiapas. (A fourth base is planned for Campeche, 
Chiapas.) These bases have hangars and workshops adequate to service 
more than SEMAR's present fleet of seven CASA C-212-CEs. USG experts 
are familiar with these bases and agree that they are adequate for 
fulfilling the mission and for maintaining the equipment.

    Question 11g. What is the anticipated procurement and production 
schedule for the aircraft? If the funds are appropriated within the 
next few months, when would you anticipate the aircraft will come off 
the line?

    Answer. In November meetings with Bell Helicopter and the ODC 
(Office of Defense Coordination) Mexico, Bell indicated that the 
aircraft is anticipated to come off the line approximately 1 year after 
an order is made for the first two or three aircraft, and within the 
following calendar year after that for the remaining aircraft. We 
anticipate delivery of the first aircraft for SEMAR 18-20 months after 
contract award, with the second aircraft delivered 1 month later.

    Question 11h. How many pilots will be needed to fly the aircraft? 
How much pilot training will be necessary before the Mexican Armed 
Forces can utilize the aircraft? Where will the training be conducted? 
Who will pay for it? At what cost? How long will such training take?

    Answer. Both the Bell 412s for SEDENA and the CASA 235s for SEMAR 
will be provided through a Foreign Military Sales framework, a total 
package approach, which includes recommended training, supply support, 
and technical assistance. All of these items have been incorporated 
into the supplemental request. Transition training (training 
experienced pilots to fly a new type of helicopter) for the aircraft 
and systems is normally provided by the equipment manufacturer as part 
of the purchase package.
    The Mexican Air Force has about 60 pilots for the Bell 212, which 
is a similar airframe as the 412. The current plan is to transition 212 
pilots to the 412. Mexican officials indicated they currently have the 
internal capability to conduct transitional training. Additionally, 
because the 412 would replace aging 212s, maintenance and logistics 
personnel would also be transitioned to the Bell 412. The similarity in 
airframes for maintenance purposes would require minimal training for 
maintenance personnel to transition to the 412. It is anticipated that 
the GOM would be able to absorb the 412s mostly using internal 
resources for training. It is not anticipated that the Mexican AF would 
need any long-term training/contractor support for operations or 
maintenance. Initial training for maintenance and operations will be 
provided with the acquisition of the Bell 412s. However, the long-term 
approach is for the Mexican Air Force to train its own pilots through 
train-the-trainer programs. Transition training is of limited duration, 
accomplished over the period of several months.
    For the CASA 235s for SEMAR, the notional crew for each of the two 
additional aircraft is five personnel, two of whom are pilots. For 25 
years SEMAR pilots have capably flown CASA 212s, which are similar in 
configuration to the requested CASA 235s. With this pool of experienced 
pilots, we do not anticipate the need for initial training, and the 
package includes funding for transition training. Training is planned 
for up to eight pilots per airframe, covering 20 working days of ground 
training, 128 hours in a simulator, and 36 flight hours. All training 
would occur in the U.S. The cost of conducting the pilot and 
maintenance training is included in the proposed assistance and is 
budgeted for $1.4 million. SEMAR would fund student travel and living 
allowances separately.

    Question 11i. How many maintenance personnel will be needed to 
sustain the new aircraft? Is additional training required for them? If 
so, what is the plan for such training?

    Answer. As discussed in section (h), Mexican AF (MAF) personnel are 
currently maintaining Bell 212s, a similar airframe. The MAF intends to 
decommission older Bell 212s with the arrival of the 412s. This would 
enable these maintenance personnel with similar maintenance training 
requirements to transition to the 412 with limited transition training. 
The plan for this transition training is to send personnel to training 
provided by Bell during the acquisition period of the aircraft. 
Additional technicians would be trained internally by the MAF.
    The MAF indicated that air force units host maintenance personnel 
with equipment maintenance capability. Additionally they have developed 
intermediate and depot level maintenance capabilities for their 
helicopters. Their maintenance plan enables the MAF to conduct all 
these levels of maintenance at home station and at any deployed 
locations in Mexico.
    The proposed training for SEMAR would provide up to six maintenance 
technicians per airframe, including 40 working days of powerplant/
systems, electrical/
instruments/avionics and engine run-up training. All training would 
occur in the U.S. The cost of conducting the pilot and maintenance 
training is included in the proposed assistance and is budgeted for 
$1.4 million. SEMAR would fund student travel and living allowances, 
separately.

    Question 11j. What degree of contractor support will be necessary 
for logistics and maintenance of the aircraft? For how long?

    Answer. We anticipate that the MAF will not require any long-term 
contractor support for the operation, logistics, and maintenance of the 
Bell 412s. With the acquisition of the helicopters, the plan is to 
purchase the necessary parts for a 2-year operational period. This 
support period will allow the MAF to develop internal logistics 
capabilities to meet the increased demand for the additional eight 
aircraft. It is envisioned that the development of this capability will 
be mainly through internal MAF resources with minimal assistance from 
outside contractors.
    The proposed initial logistic support for the SEMAR aircraft 
includes notional operation-level spares for a period of 3 years, 
assuming 700 flight hours per year, plus one spare turbo-prop engine 
per airframe. The budget for spares included in the proposed assistance 
is $6 million per airframe. Additionally, the proposed assistance 
includes $3.5 million for full in-service technical support provided by 
in-country vendor field representatives for a period of 3 years. In 
combination, this logistic support proposal should provide aircraft 
operational availability of 90 percent.

    Question 12. The most recent National Drug Threat Assessment issued 
by the National Drug Intelligence Center indicated that the trafficking 
of drugs in the eastern Pacific increased substantially in the last 
couple of years. That suggests a need for significant assets in 
maritime interdiction. Yet the request is for only two maritime patrol 
aircraft (CASA 235) that cost $50 million apiece. What other measures 
are the two governments taking, or planning to take, to confront 
trafficking in this corridor?

    Answer. The U.S. Coast Guard and Mexico are working closely in many 
areas to improve maritime cooperation. In early December, a delegation 
from the Mexican Navy (led by Secretary of the Navy Admiral Sanyez) 
visited U.S. Coast Guard Headquarters to discuss ways to improve 
cooperative efforts. The Secretariat of the Navy (SEMAR) is itself 
looking to procure small boats to improve law enforcement presence 
along their coasts and discussed various options with U.S. Coast Guard 
officials.
    Over the past year, the Coast Guard has noted a significant 
improvement in Government of Mexico's responsiveness to inquiries on 
vessels claiming Mexican nationality. The Mexican Navy officials stated 
that the GOM is working hard to improve coverage of their maritime 
regions through an automated information system, which will provide 
greater transparency of the maritime traffic in the eastern Pacific 
Ocean. The USG, through the Joint Interagency Task Force South (JIATFS) 
and the USCG's Eleventh District, continues to conduct detection, 
monitoring, and drug interdiction operations in the eastern Pacific 
narcotics trafficking transit zone. The USG has discussed establishing 
agreed interdiction principles with Mexico, which would improve our 
ability to more quickly reach decisions on tactical maritime 
cooperation; however, no formal agreement or process has been 
established.

    Question 13. I have long been concerned with corruption in the 
Mexican Government, including in its law enforcement institutions. What 
specific measures will be taken to ensure that assistance is provided 
only to vetted units? Who will conduct the vetting, by what standard, 
and in what capacity?

    Answer. Some Mexican Federal law enforcement agencies are beginning 
to use polygraphs as one aspect of a developing comprehensive vetting 
program to weed out corrupt officers. USG law enforcement agencies 
(LEAs) and the Embassy Narcotics Affairs Section (NAS) are all helping 
train Mexican Federal LEA personnel in administering polygraph 
examinations. USG LEAs and NAS will continue to independently vet units 
they work with directly.
    The Secretariat for Public Security (SSP) has announced plans to 
hire an additional 8,000 investigators, adding to an already existing 
Federal police force of about 27,000. Our understanding is that this 
additional capacity will allow all new recruits to undergo initial 
vetting, while all SSP personnel will be subject to periodic vetting.
    To ensure that assistance is only provided to the intended 
recipients, such as vetted units, the Embassy has in place end-use 
monitoring systems, which allow Foreign Service Officers staffing the 
Narcotics/Law Enforcement Affairs Sections (NAS) in our Embassies in 
Mexico and the Central America countries to oversee the programs. These 
individuals are supported in Washington by Bureau of International 
Narcotics and Law Enforcement Affairs (INL) subject and country 
experts, as well as budget and management experts. For example, INL 
regularly sends in-house experts to evaluate procedures and records at 
NAS operations throughout the world, conducting Management Assessment 
Visits that review NAS policies and procedures for internal management 
controls, property management (including end-use monitoring), 
contracting and procurement, financial management and human resources 
management.
    Each NAS monitors the condition and maintenance of commodities 
provided to the recipient agency of the host governments. They use this 
information to produce an end-use monitoring report which forms part of 
a comprehensive annual report to Congress. The State Department 
considers end-use monitoring one of the critical management tasks for 
which field offices are responsible.
    The Merida Initiative will also combat corruption through programs 
for police professionalization and training, including ethics and 
anticorruption training, support for the Government of Mexico's Federal 
anticorruption agency (Secretariat of Public Administration); an 
expansion of an existing Culture of Lawfulness project designed to 
develop public support for the rule of law; assistance to the Office of 
the Attorney General (PGR) in establishing citizen complaint offices to 
provide a venue for the public to register complaints of malfeasance or 
abuse; and strengthening the PGR's Office of Inspector General, and the 
SSP's Office of Professional Responsibility, to improve internal 
integrity mechanisms in the Mexican law enforcement community. The 
initiative will also provide training for civil society NGOs to educate 
the general populace concerning their rights, responsibilities, and 
recourse to redress grievances; and will encourage NGO participation on 
advisory boards to monitor the effectiveness of citizen complaint 
centers and internal oversight bodies.

    Question 14. The aid proposal calls for $37 million for 
``additional staff, equipment, and technical assistance and evaluation 
costs needed'' to implement and monitor the Mexico program. In a press 
briefing on October 22, Assistant Secretary Shannon stated that we are 
``not going to have to increase . . . our personnel footprint in 
Mexico.'' This statement was preceded by a reference to law enforcement 
officers. Was the statement about not increasing personnel focused only 
on law enforcement officers, or all personnel?

    Answer. On October 22, Assistant Secretary Shannon was speaking 
about law enforcement and military personnel. Initial estimates 
indicate that providing the full level of program support and oversight 
functions will require up to 75 additional personnel. The majority 
would be foreign national staff filling financial management 
(accounting, voucher examination) and logistics support capacities, but 
would also include several personal services contract (PSC) personnel 
focusing on contract and project management and oversight. They would 
be based in Washington, DC, Mexico, and Central America.

    Question 15. How many additional U.S. personnel, whether direct 
hires or contractors, will be necessary to implement and monitor the 
Mexico program? Where will they be located? What funds may be needed to 
provide necessary office space in Embassy Mexico City?

    Answer. Initial personnel estimates indicate that providing the 
full level of program support and oversight functions for the programs 
requested will require up to 75 additional personnel in Mexico, Central 
America, and Washington, DC; most of these would be involved in 
managing the resources provided to Mexico. The majority of these 
additional personnel would be foreign national staff filling financial 
management (e.g., accounting and voucher examination) and logistics 
support capacities. These additional personnel would also include 
personal services contract (PSC) personnel focusing on contract and 
project management, project oversight, and financial and contacts 
audits.
    The Embassy in Mexico City is still considering the best means to 
provide adequate office space for these staff. Any arrangement must 
meet all relevant regulations regarding security.
    The funds requested for overhead ought to be adequate to cover the 
administrative requirements for managing these resources appropriately.

    Question 16. Please provide a breakdown, by agency, of the number 
of personnel in Embassy Mexico City working on law enforcement matters 
(including the NAS, DEA, FBI, DHS, etc.) as of the start of fiscal 
2008.

    Answer. There are 284 personnel working on law enforcement matters 
across Mission Mexico, which includes the constituent posts. Of these, 
220 are U.S. direct hires or personal service contractors (U.S. DH/PSC) 
and 64 are Locally Employed Staff (LES). For the agency and post 
breakdown, please see the chart below.

------------------------------------------------------------------------
              Agency                   LES      U.S. DH/PSC     Total
------------------------------------------------------------------------
State/Narcotics Affairs Section
 (NAS)
    Mexico City..................           10            7           17
                                  --------------------------------------
      Total......................           10            7           17
                                  ======================================
DOJ/Drug Enforcement
 Administration (DEA)
    Mexico City..................            6           44           50
    Ciudad Juarez................            1            6            7
    Guadalajara..................            2            7            9
    Matamoros....................  ...........            6            6
    Merida.......................            1            5            6
    Monterrey....................            2            7            9
    Nogales......................  ...........            6            6
    Nuevo Laredo.................  ...........            6            6
    Tijuana......................            2            8           10
    Mazatlan.....................            4            7           11
    Hermosillo...................            1            6            7
                                  --------------------------------------
      Total......................           19          108          127
                                  ======================================
DOJ/Federal Bureau of
 Investigation (FBI)
    Mexico City..................  ...........           22           22
    Ciudad Juarez................  ...........            2            2
    Guadalajara..................  ...........            3            3
    Monterrey....................  ...........            3            3
    Tijuana......................  ...........            2            2
    Hermosillo...................  ...........            1            1
                                  --------------------------------------
      Total......................  ...........           33           33
                                  ======================================
DOJ/Alcohol, Tobacco, Fire Arms
 and E. (ATF)
    Mexico City..................            2            4            6
    Monterrey....................  ...........            2            2
                                  --------------------------------------
      Total......................            2            6            8
                                  ======================================
DOJ/Office of International
 Affairs (OIA)
    Mexico City..................  ...........            2            2
                                  --------------------------------------
      Total......................  ...........            2            2
                                  ======================================
DOJ/U.S. Marshall (USMS)
    Mexico City..................            2            3            5
                                  --------------------------------------
      Total......................            2            3            5
                                  ======================================
DHS/U.S. Citizen & Immigration
 Services (CIS)
    Mexico City..................            7            6           13
    Ciudad Juarez................            3            3            6
    Monterrey....................            3            2            5
    Tijuana......................            3            1            4
                                  --------------------------------------
      Total......................           16           12           28
                                  ======================================
DHS/Immigration and Customs
 Enforcement (ICE)
    Mexico City..................            5           14           19
    Ciudad Juarez................            2            3            5
    Monterrey....................            2            5            7
    Tijuana......................  ...........            3            3
    Hermosillo...................  ...........            5            5
                                  --------------------------------------
      Total......................            9           30           39
                                  ======================================
DHS/Customs and Border Protection
 (CBP)
    Mexico City..................            3            7           10
                                  --------------------------------------
      Total......................            3            7           10
                                  ======================================
DHS/U.S. Secret Service (USSS)
    Mexico City..................            1            3            4
                                  --------------------------------------
      Total......................            1            3            4
                                  ======================================
DHS/Transportation Security
 Administration (ATS)
    Mexico City..................            1            1            2
                                  --------------------------------------
      Total......................            1            1            2
                                  ======================================
    Mexico City..................            1            2            3
                                  --------------------------------------
      Total......................            1            2            3
                                  ======================================
Treasury/Internal Revenue Service/
 Criminal Investigation Division
 (IRS-CID)
    Mexico City..................  ...........            2            2
                                  --------------------------------------
      Total......................  ...........            2            2
                                  ======================================
DOD/Information Analysis Center
 (IAC)
    Mexico City..................  ...........            4            4
                                  --------------------------------------
      Total......................  ...........            4            4
                                  ======================================
      Grand total................           64          220          284
------------------------------------------------------------------------


    Question 17. A recent report by the Government Accountability 
Office noted the United States and Mexico have cooperated on maritime 
interdiction in recent years but that the two countries have not agreed 
to a bilateral maritime cooperation agreement to allow U.S. law 
enforcement personnel to board and search Mexican-flagged vessels 
without asking the Government of Mexico for authority to board on a 
case-by-case basis.

    a. What measures are currently in place for boarding suspect 
vessels?
    b. Are we seeking such an agreement that would provide authority to 
board in advance, and what obstacles are there to achieving such an 
agreement?

    Answer. The Calderon administration has been noticeably more 
responsive to U.S. requests to board suspect Mexican-flagged vessels 
than were previous administrations. While there is currently no formal 
maritime agreement between the United States and Mexico, Government of 
Mexico (GOM) permission to board a Mexican-flag vessel is accomplished 
by approaching the GOM on a case-by-case basis, pursuant to article 17 
of the United Nations Convention Against Illicit Traffic in Narcotic 
Drugs and Psychotropic Substances, 1988.

    Question 18. In March 2007, the Bureau of Western Wemisphere 
Affairs issued a fact sheet stating that the Inter-American Convention 
Against Illicit Manufacturing and Trafficking in firearms will ``make 
the citizens of the hemisphere safer.'' But just a month earlier, in a 
letter to this committee setting forth its priorities for treaties in 
the 110th Congress, the Department stated that it did not support 
Senate action on this convention.
    If the convention will make the citizens of the hemisphere safer, 
and the Government of Mexico is asking for our help in reducing 
firearms trafficking, why does the administration not support Senate 
action on this convention?

    Answer. The Department of State continues to believe that the 
Organization of American States' Convention against Illicit 
Manufacturing of and trafficking in Firearms, Ammunition, Explosives, 
and Other Related Material (CIFTA) will make the citizens of the 
hemisphere safer by helping shut down the illicit transnational arms 
market that fuels the violence associated with drug trafficking, 
terrorism, and international organized crime. We therefore share your 
interest in the CIFTA and appreciate the importance you attach to it.
    We are in the process of reviewing the convention and consulting 
with the interagency community, industry, and civil society on the 
importance we attach to ratification of this convention.

    Question 19a. Information provided to the committee indicates that 
of the funds for Central America, nearly $15 million, or nearly 30 
percent, are not allocated to a specific country. The material 
indicates that it will be determined based on consultations with the 
Central American Integration System.
    Why was this proposal submitted at this time, given that you have 
not yet finished even preliminary planning for how you would spend the 
funds?

    Answer. The administration's plan calls for $14.8 million of the 
$50 million request to be spent on prison reform and basic nonlethal 
equipment for police forces. During USG consultations with the Central 
American Integration System (SICA) on the Merida Initiative, the State 
Department requested that each Central American Government provide a 
list of prioritized nonlethal equipment and prison reform needs. 
Central American nations are in the process of finalizing their 
requirements. Once we receive these, we will send expert teams to the 
region in early 2008 to refine these requests, which will allow us to 
rapidly finalize our proposed allocations in these two categories.

    Question 19b. When do you expect to complete these consultations 
and then be able to provide Congress with more specific information?

    Answer. These consultations at the Embassy level have been ongoing 
and build on our existing counternarcotics and law enforcement 
programs. We expect to begin sending Washington-based, specialized 
interagency teams to Central America in early 2008. We should be able 
to provide more specific information to Congress as soon as possible 
after the assessments are completed.

    Question 19c. What assessments have been conducted in preparation 
of this request?

    Answer. Our Embassies in Central America have ongoing relationships 
with public and security forces that form the basis for assessing and 
determining individual countries' needs. Following President Bush's 
important consultations with President Berger in March, Assistant 
Secretary Shannon led the U.S. delegation to the first U.S.-SICA 
Dialogue on Security in July. There, SICA identified drug trafficking, 
illicit trafficking of arms, and gangs as the most pressing security 
concerns. In August, embassies in the region provided to the Department 
their own comprehensive assessment of needs. Throughout September and 
October, multiple Washington interagency meetings considered this 
information and compiled the program proposals for Central America 
submitted under the Merida Initiative supplemental request. The SICA 
regional security plan that was presented in September (and formally 
approved by the SICA presidents on December 12 at their SICA summit) 
provided valuable information for these deliberations. In November, USG 
officials formally presented and briefed the administration's Central 
America request to the SICA vice-ministers.

    Question 20. What additional U.S. personnel will be needed--whether 
direct hires or contractors--to implement the Central American portion 
of this request? Where will they be located?

    Answer. The additional personnel overseeing the Central American 
portion of the request will be located at the embassies in the region. 
The majority would be foreign national staff filling financial 
management (accounting, voucher examination) and logistics support 
capacities, but would also include several personal services contract 
(PSC) personnel focusing on contract and project management, project 
oversight, and financial and contacts audits. As many as 18 staff could 
be required in the Central America region out of total 75 personnel.

    Question 21. You testified that you regret that you were unable to 
engage in consultations with Congress prior to the announcement of this 
aid proposal. Why were such consultations not undertaken?

    Answer. Our intention was to provide the Congress a credible 
security cooperation package that reflected the best efforts and work 
of our interagency community, including conversations with our Mexican 
and Central American counterparts. We believe we have prepared such a 
package and we commit to work closely with the Congress to craft a 
security cooperation relationship with Mexico and Central America that 
will meet our national security interests and take full advantage of 
the historic opportunity we now have.

    Question 22. It has been reported that the Central American 
countries are concerned that the robust $500 million request for Mexico 
and only $50 million earmarked for all seven Central American countries 
would shift drug trafficking operations from Mexico to Central America. 
Do you believe there are sufficient resources allocated to Central 
America to prevent this from occurring? What specific steps are being 
taken to ensure that such a shift does not happen? What funding 
requests within the initiative would help Central America fight against 
any increased trafficking in its countries as a result of what we hope 
will be disrupted drug flow in Mexico?

    Answer. Drug trafficking and criminal violence are very serious 
problems in Central America. The $50 million request for Central 
America is part of a continuing assistance program. The Central America 
portion of the package was formulated to support the regional security 
strategy developed by the Central American Integration System (SICA). 
The requested $50 million would directly respond to their identified 
training and material shortfalls as we continue to define more 
effective joint approaches and measures to address transnational 
threats.
    As the Merida Initiative was developed, we discussed internally, as 
well as with Central American governments, the possibility of 
traffickers using alternative routes through Central America if the 
proposed programs are successful in Mexico. Our goal is to develop a 
substantive, mutually beneficial security partnership with our Central 
American neighbors that will improve the security of the region as a 
whole.
    The Merida Initiative's Central American component was designed as 
a regional approach. For example, the package includes training and 
equipment for port, airport, and border security in Central America; 
upgraded maritime interdiction assets (Costa Rica); expansion of 
sensitive investigation police units focused on counternarcotics; and 
enhanced information-sharing and collection, such as upgrading crime 
and fingerprint databases.
    We intend to use this program to build a the stronger political 
will among SICA member states to work with each other, as well as with 
Mexico and the USG.
                                 ______
                                 

Responses of Assistant Secretary Thomas Shannon to Questions Submitted 
                       by Senator Robert Menendez

    Question 1. You continually said in the hearing that you, ``regret 
that you were unable to consult Congress over this package.''
  <bullet> a. Why were you unable to consult with Congress?

    Answer. Our intention was to provide the Congress a credible 
security cooperation package that reflected the best efforts and work 
of our interagency community, including conversations with our Mexican 
and Central American counterparts. We believe we have prepared such a 
package and we commit to work closely with the Congress to craft a 
security cooperation relationship with Mexico and Central America that 
will meet our national security interests and take full advantage of 
the historic opportunity we now have.

    Question 2. The situation in Mexico has grown increasingly complex. 
In addition to violence and corruption, Mexico has become a drug 
producing country itself. Also, Mexico now also faces a growing problem 
with drug consumption.

  <bullet> a. Do you recognize these two developments as threats in 
        Mexico?
  <bullet> b. What specifically in the packages addresses these two 
        threats?

    Answer. The increase in drug production and consumption is a threat 
in Mexico, and along the U.S. border. The Government of Mexico 
recognizes this threat and has taken decisive actions to address it.
    The Merida Initiative proposes to increase U.S. support and 
cooperation in interdiction activities, information-driven operations, 
and enhanced law enforcement cooperation. For example, the proposed 
inspection equipment and canine units will help Mexico deter production 
and inhibit the transport of drugs and drug precursors, including those 
used to produce methamphetamines. The advanced IT equipment will help 
facilitate law enforcement information-sharing and expedite crime scene 
analysis to target major drug production centers; and the support for 
institution-building will help strengthen Mexico's judicial and law 
enforcement institutions' capacity to dismantle Mexico's criminal 
organizations and have a real impact on drug production and 
trafficking.
    The programs proposed as part of the Merida Initiative, however, 
are only supplemental to the leadership Mexico has taken in addressing 
organized crime and drug production, which includes combined efforts on 
interdiction, eradication, public awareness campaigns, and economic 
development. In addition to our cooperation on interdiction, we have 
supported Mexico's efforts against domestic production and its internal 
demand.
    On demand reduction, we propose to support Mexico's considerable 
efforts in drug addiction treatment and prevention by providing $15.157 
million of communications technology. This will be used to build a 
nationwide network to link the over 300 centers to reduce drug 
consumption and enable the delivery of Mexican Government drug 
addiction prevention and treatment programs throughout the country. In 
September, the Government of Mexico announced the creation of 300 
specialized treatment medical units nationwide (70 ready in 2007) and 
64 new Community Centers for Comprehensive Addiction Treatment. The 
Government of Mexico has an annual budget of $110 million for 
prevention and treatment of addictions. Approximately $27 million 
supports the Youth Integration Centers and $14.5 million is directed 
toward the prevention and treatment of addictions. Mexico's asset 
forfeiture law requires that 33 percent of assets seized be used for 
demand reduction programs.

    Question 3. Despite having brought up Central American gang 
violence policy recommendations in a hearing over 2 years to solve a 
problem that has plagued Central America for well over 2 years, we now 
see this request in an emergency supplemental. And this is true for the 
$500 million to Mexico. I'm concerned over how this will affect future 
Latin American foreign assistance.

  <bullet> a. How will this package affect overall U.S. Foreign 
        Assistance to Latin America in the FY09 budget?
  <bullet> b. Will this package continue to be paid for over the 
        existing level or do you predict some sort of cuts?

    Answer.
     3a. The FY 2009 budget is still under discussion with OMB. We look 
forward to reviewing it with you once it is finalized. The Merida 
Initiative is a high priority, as is existing funding to the 
hemisphere; however, we are unable to predict future funding levels.

    3b. On July 18, at the inaugural, U.S.-SICA Security Dialogue, I 
announced the U.S. Strategy to Combat Gangs from Central America and 
Mexico. Under this comprehensive strategy, the United States is working 
with partner countries to combat transnational and other gangs that 
commit crimes in Central America, Mexico, and the United States. The 
U.S. Gang Strategy focuses efforts in five areas: Diplomacy, 
repatriation, law enforcement, capacity enhancement, and prevention.
    Work has begun under all five pillars. In addition to work being 
done throughout the interagency to confront the gang issue in Central 
America, at the July meeting, the U.S. Government committed $3 million 
for prevention efforts and we have recently reprogrammed $16 million 
that will help fund portions of the gang strategy also.
    The Merida Initiative, if funded, would permit us to fully 
implement the gang strategy. The package contains elements to improve 
law enforcement capabilities in Central America as well as increased 
funding for prevention programs, including funding for community 
policing and reintegration programs.

    Question 4. The $50 million in assistance for the Central American 
States is one-tenth of that slated for Mexico.

  <bullet> a. Is not the problem of drug trafficking and criminal 
        violence just as serious in those countries?
  <bullet> b. Are there plans to increase funding to Central America in 
        the future?
  <bullet> c. When will those proposals be presented to Congress?

    Answer. Drug trafficking and criminal violence are very serious 
problems in Central America. Like the funds requested for Mexico, the 
$50 million request for Central America is a first step. We expect to 
request additional funds in support of the Merida Initiative as a part 
of the regular budget cycle.
    The Central America portion of the package was formulated to 
support the regional security strategy developed by the Central 
American Integration System (SICA). The targeted assistance at this 
time would directly respond to their request as we seek to define more 
effective joint approaches and measures to address transnational 
threats. On November 20, a technical team traveled to Guatemala to hold 
consultations and continue our dialog on deepening security 
cooperation. Additional teams will travel to Central America later this 
month.

    Question 5. Documents provided to this committee this week indicate 
that some $11 million of the $50 million requested--over 20 percent of 
the request--is for equipment for the police for the nations of Central 
America. The allocations to the individual countries have not been 
determined.

  <bullet> a. What assessments have been conducted to determine the 
        amount of assistance required?
  <bullet> b. When do you expect to determine these country 
        allocations?
  <bullet> c. Why should Congress provide this assistance when the 
        administration has not even engaged in such basic allocations 
        between countries?

    Answer. To ensure the most effective use of resources, it was very 
important for us to consult with the Central American countries to 
determine their police equipment needs before allocating funding to 
individual countries. With that information, the United States will be 
able to provide underequipped Central American countries with the 
equipment that will best allow civilian law enforcement forces to 
respond to the most pressing threats they deal with on a daily basis.
    We have identified initial funding levels, but we are still in the 
process of confirming these amounts. We have and continue to work 
closely with our embassies and personnel on the ground to assess and 
determine individual countries' law enforcement needs. In response to 
our November 20 request during USG consultations with the Central 
American Integration System (SICA) on the Merida Initiative, we have 
received lists of prioritized nonlethal equipment needs from each 
Central American Government. We are using this information, together 
with that provided by our experts in the region, to refine our 
decisions. Additionally, expert teams will travel to the region in mid-
January to conduct further assessments. Once we have a complete picture 
of the requirements, we will work with Congress to allocate funds to 
individual countries.

    Question 6. In the hearing you mentioned that you will vet 
agencies/units who would receive U.S. funding to make sure that the 
funding will not be used to suppress human rights or any crimes.

  <bullet> a. How exactly does this vetting process work?
  <bullet> b. What safeguards are proposed to ensure that the proposed 
        assistance is used for its intended purpose and to ensure that 
        our partners are not cooperating with the drug cartels?

    Answer. The Embassy vets Mexican Government officials from law 
enforcement agencies who attend USG-sponsored training or receive other 
direct benefits, in accordance with the provisions of the Leahy 
amendment, to determine whether they, or the units of which they are 
members, are known to have been involved in any past human rights 
abuses. This process involves name checking through databases at the 
Embassy and in Washington.
    The proposed support will be provided in the form of equipment and 
training. The Embassy has in place end-use monitoring systems to ensure 
that the elements provided are used for their intended purposes. The 
programs will be overseen by Foreign Service Officers staffing the 
Narcotics/Law Enforcement Affairs Sections (NAS) in our Embassies in 
Mexico and the Central America countries; these individuals are 
supported in Washington by Bureau of International Narcotics and Law 
Enforcement Affairs (INL) subject and country experts, as well as 
budget and management experts. For example, INL regularly sends in-
house experts to inspect NAS offices throughout the world, conducting 
Management Assessment Visits that review NAS policies and procedures 
for internal management controls, property management (including end-
use monitoring), contracting and procurement, financial management, and 
human resources management.
    Each NAS monitors the condition and maintenance of commodities 
provided to the recipient agency of the host governments. They use this 
information to produce an end-use monitoring report which forms part of 
a comprehensive annual report to Congress. The State Department 
considers end-use monitoring one of the critical management tasks for 
which field offices are responsible.
    Additionally, the Mexican Government is undertaking great efforts 
to monitor the reliability of its own staff. Mexican law enforcement 
agencies are developing their own vetting systems that include the use 
of polygraphs to weed out corrupt officers. USG law enforcement 
agencies train the Mexican personnel who administer these tests in the 
proper use of the polygraph.
    On November 16, 2007, 22 new Mexican Federal Police (SSP) polygraph 
examiners graduated from a course given by the Texas Department of 
Public Security (DPS) Police Academy in Austin, TX, that was organized 
by the FBI and financed by NAS/Mexico. During this intensive 10-week 
training course, the DPS and the FBI also provided a 1-week inservice 
``Senior Polygraph Examiners'' training course to the SSP's existing 15 
seasoned (and vetted) polygraph staff, so that they could serve as 
mentors to the new recruits and train other entrants.

    Question 7. The joint statement notes that Mexico has increased its 
security spending aimed at drug trafficking networks to $2.5 billion 
annually.

  <bullet> a. What is Mexico contributing from its budget?

    Answer. Out of an approximate overall security budget for 2007 of 
$7 billion (depending on exchange-rate variations), the Government of 
Mexico is dedicating approximately $2.4 billion to the fight against 
organized crime and drug trafficking. It is important to remember that 
the states and municipal governments expend far greater amounts on 
security and law enforcement, since they have primary jurisdiction. 
According to the Embassy of Mexico, the Federal budget for 2007 
includes funding directed to the fight against organized crime in the 
following areas, in millions of dollars:

National Council Against Addictions...............................  78.6
Ministry of Communications and Transport..........................  10.2
Customs...........................................................  11.7
Financial Intelligence Unit.......................................   5.1
Ministry of the Interior.......................................... 277.7
Ministry of National Defense...................................... 131.8
Ministry of the Navy..............................................  21.1
Office of the Attorney General....................................  36.5
Public Security Support Fund (FASP)............................... 459.3
Ministry of Public Security....................................... 1,255
    Federal Preventive Police--(433.7)                                  
    Prevention and Social Rehabilitation--(222.5)                       
    Executive Secretariat of the National Public Security System--
      (106)                                                             
    Other areas (including Security Council and Minors Council)--
      (492.8)                                                           
                                                                  ______
      Total....................................................... 2,386

  <bullet> 7b. Has it committed to this level of funding--or even 
        increased funding--for the next 2 or 3 years?

    Answer. President Calderon has publicly stated that restoring 
public safety and security is the top priority of his administration. 
As such, he has committed to taking those steps necessary to ensuring 
this priority.


  <bullet> 7c. In Colombia, an additional tax was imposed to fund 
        programs for ``Plan Colombia.'' Is Mexico seeking additional 
        revenue sources domestically to pay for increased security 
        efforts?

    Answer. According to published Government of Mexico (GOM) figures, 
spending for 2008 on the Ministry of Public Security will increase by 
39.4 percent, for the Ministry of Defense by 4.6 percent, for the Navy 
by 2.1 percent, for the Office of the Attorney General by 6 percent, 
and the Secretariat of the Interior by 28 percent. More detailed 
breakdowns for component agencies and specific projects are not yet 
available.
    GOM revenues for 2008 will increase by 1.2 percent of GDP, or 
approximately USD 11.7 billion, as a result of tax changes in the 
Public Finance Reform legislation, which was approved September 2007.

    Question 8. My concern is that by attacking the supply side and not 
the demand side, we will only squeeze the cartels, drug trafficking and 
violence to a different region. The Caribbean, and specifically Haiti, 
are likely new destinations.

  <bullet> a. What is in this package to prevent that from happening?
  <bullet> b. What are our current efforts to prevent that from 
        happening?

    Answer. This package focuses on improving the capacity of the 
Mexican and Central American governments to meet their security and law 
enforcement challenges, and does not provide for increased assistance 
to Caribbean governments. Nevertheless, we are cognizant of the 
possibility that success in Mexico and Central America may force drug 
trafficking and other organized criminals to seek new routes and 
methods.
    Current U.S. counternarcotics assistance, administered by the 
Bureau for International Narcotics and Law Enforcement Affairs (INL) 
provides training, equipment, travel, and technical assistance for a 
number of law enforcement and drug demand-reduction efforts in the 
Caribbean. The primary purpose is to improve the capacity of law 
enforcement agencies to target trafficking organizations and conduct 
more efficient interdiction operations. INL assistance often supports 
specialized units, such as canine detection and vetted investigative 
units. INL funding also supports demand reduction programs, 
participation in interoperability conferences, and in some cases 
participation in the Container Security Initiative. In the Eastern 
Caribbean, INL assistance also supports restoration and ongoing 
maintenance of interdiction patrol boats. In Haiti, U.S. 
counternarcotics and security assistance focuses on reform of the 
Haitian National Police (HNP) and the Haitian Coast Guard. USG-provided 
equipment and technical assistance is aimed at transforming the HNP 
into an effective law enforcement institution. In addition, the U.S. 
Coast Guard supports Haitian Coast Guard operations with leadership and 
technical courses and visits by Mobile Training Teams on such areas as 
boat maintenance, law enforcement techniques, and port security 
operations.
    In addition to the counternarcotics assistance provided INL, 
several Caribbean countries are participating in Operation Enduring 
Friendship, a maritime security program designed to help defend the 
southern approaches of the United States by increasing the maritime 
domain awareness and interdiction capabilities of the participating 
countries. While Operation Enduring Friendship is intended to help 
protect the United States and the region from the full range of 
maritime threats, its improvements to regional maritime cooperation and 
interdiction will help to deter illegal trafficking in the region.
    It should also be noted that since the heyday of Caribbean 
trafficking, the U.S. and its regional partners have taken several 
important steps to make illegal trafficking through the region more 
difficult. The aforementioned programs as well as Operation Bahamas, 
Turks and Caicos (OPBAT), an interagency counternarcotics operation in 
cooperation with the Commonwealth of The Bahamas, provide striking 
examples. A 2005 GAO report noted that improved intelligence, better 
regional maritime cooperation, and the use of armed helicopters against 
go-fast boats, have combined to make the Caribbean a more dangerous 
environment for drug traffickers. The result was a string of 
recordbreaking years for drug seizures and disruptions in the drug 
transit zone from 2000-2005. The same report emphasized the importance 
of the 25 Counternarcotics Maritime Law Enforcement Agreements between 
the U.S. and regional governments.
    We believe that our assistance programs, excellent regional 
cooperation, and support for USG agencies such as Joint Inter-Agency 
Task Force South, will deter illegal trafficking organizations from 
moving the bulk of their activity to the central and eastern Caribbean. 
However, we will be in close contact with the intelligence and law 
enforcement communities, as well as our partners in the region, looking 
at any indications that such a transition is underway.

    Question 9. The State Department Human Rights Report for 2006 
(issued in March 2007) states that ``a deeply entrenched culture of 
impunity and corruption persisted'' in Mexico, ``particularly at the 
state and local level.'' Among the human rights problems reported were 
unlawful killings by security forces; kidnappings, including by police; 
torture; arbitrary arrests and detention; corruption, inefficiency, and 
lack of transparency in the judicial system.''

  <bullet> a. What measures will be taken as part of this assistance 
        program to improve the human rights record of Mexico's security 
        forces?
  <bullet> b. What is being done in Mexico to address the widespread 
        use of torture in the public security and criminal justice 
        systems, the same institutions that are primary recipients of 
        U.S. assistance under the President's proposal?

    Answer.
    a. The protection of human rights is an integral part of all USG 
training programs, both in the course curriculum and in the selection 
and vetting of the individuals and units to be trained. The Merida 
Initiative includes $3.5 million specifically for human rights training 
of security forces and support for NGOs and other civil society groups 
involved in human rights and citizen participation activities.
    The Merida Initiative includes funding to help strengthen and 
expand the office of inspector general at the Attorney General's 
Office, the Office of Professional Responsibility, which has authority 
to investigate both police and civilians, the Secretariat of the Public 
Function, which has governmentwide investigative authority, civilian 
complaint centers, and support for civilian watchdog organizations. 
These tools will help maintain public accountability of law enforcement 
and justice sector institutions, and those within the Mexican 
Government are strongly supported by the Calderon administration 
already, which has recognized the need to enhance their functions. In 
late September 2007, in response to allegations of human rights abuses, 
the Mexican military accepted all of the recommendations of Mexico's 
National Commission for Human Rights (CNDH). Mexico's Army, SEDENA, 
affirmed its commitment to collaborating with CNDH on outstanding 
investigations. In October, a civilian court sentenced 8 soldiers up to 
41 years in prison for raping 16 women in June 2006 in Coahuilla. This 
represented the first time that troops have been tried in a civilian 
court.
    b. Recent Mexican governments have taken steps to reduce the use of 
torture and coerced confessions. In 2003, the Mexican Government 
promulgated guidelines that require prosecutors and other law 
enforcement personnel to receive training on human rights and police 
practice according to the Manual on the Effective Investigation and 
Documentation of Torture and other Cruel, Inhuman or Degrading 
Treatment or Punishment, known as the ``Istanbul Protocol,'' adopted by 
the Human Rights Commission of the United Nations. Mexican law 
prohibits torture and does not allow the use of coerced confessions. It 
establishes assessment, investigation, and reporting guidelines and 
procedures in accordance with international human rights standards and 
international instruments. The move to an oral judicial system will 
also have the added benefit of lessening the possibility of coerced 
confessions by police investigators and/or prosecutors.

    Question 10. The most recent National Drug Threat Assessment issued 
by the National Drug Intelligence Center indicated that the trafficking 
of drugs in the eastern Pacific increased substantially in the last 
couple of years. That suggests a need for significant assets in 
maritime interdiction. Yet the request is for only two maritime patrol 
aircraft (CASA 235) that cost $50 million apiece.

  <bullet> a. What other measures are we taking or planning to take? 
        Will Mexico purchase any of these aircraft with its own funds?

    Answer. In order to deny the use of the eastern Pacific and western 
Caribbean to transnational criminal organizations and terrorists, the 
Government of Mexico (GOM) has requested that the USG provide it with 
two CASA 235 maritime patrol aircraft to complement the existing seven 
CASA 212 aircraft currently operated by the Mexican Navy (SEMAR.) This 
support would complement purchases to be made by the Government of 
Mexico of additional aircraft and sea craft; it also standardizes with 
equipment utilized by the U.S. Coast Guard, providing for greater 
interoperability. Mexico's short-term objective is to build a fleet of 
six CASA 235s and seven CASA 212s to enable it to conduct maritime 
surveillance over the eastern Pacific and the western Caribbean. In 
addition, SEMAR has stated its intentions to increase its fleet of 
naval patrol vessels.
    The addition of CASA 235 maritime patrol aircraft will further 
enhance the ability of SEMAR to conduct long-range maritime patrols. 
This will improve Mexico's maritime domain awareness and, together with 
other Mexican enhancements to their interdiction capabilities, should 
result in increased seizures, ultimately reducing the use of Mexico's 
littoral waters by transnational criminals and terrorists.

    Question 11. A recent report by the Government Accountability 
Office noted the United States and Mexico have cooperated on maritime 
interdiction in recent years but that the two countries have not agreed 
to a bilateral maritime cooperation agreement to allow U.S. law 
enforcement personnel to board and search Mexican-flagged vessels 
without asking the Government of Mexico for authority to board on a 
case-by-case basis. At present, the process requires a time-consuming 
effort to obtain permission from the government in such cases.

  <bullet> a. Are we seeking such an agreement that would provide 
        authority to board in advance, and what obstacles are there to 
        achieving such an agreement?

    Answer. The Calderon administration has been noticeably more 
responsive to U.S. requests to board suspect Mexican-flagged vessels 
than were previous administrations. While there is currently no formal 
maritime agreement between the United States and Mexico, Government of 
Mexico (GOM) permission to board a Mexican-flag vessel is accomplished 
by approaching the GOM on a case-by-case basis, pursuant to article 17 
of the United Nations Convention Against Illicit Traffic in Narcotic 
Drugs and Psychotropic Substances, 1988.

    Question 12. In March 2007, the Bureau of Western Hemisphere 
Affairs issued a fact sheet stating that the Inter-American convention 
against Illicit Manufacturing and Trafficking in Firearms will ``make 
the citizens of the hemisphere safer.'' But just a month earlier, in a 
letter to this committee setting forth its priorities for treaties in 
the 110th Congress, the Department stated that it did not support 
Senate action on this convention.

  <bullet> a. If the convention will make the citizens of the 
        hemisphere safer, and the Government of Mexico is asking for 
        our help in reducing firearms trafficking, why does the 
        administration not support Senate action on this convention?

    Answer. The Department of State continues to believe that the 
Inter-American Convention against the illicit Manufacturing of and 
Trafficking in Firearms, Ammunition, Explosives, and Other Related 
Materials (CIFTA) will make the citizens of the hemisphere safer by 
helping shut down the illicit transnational arms market that fuels the 
violence associated with drug trafficking, terrorism, and international 
organized crime. We share your interest in the CIFTA and appreciate the 
importance you attach to it, and are in dialog with the interagency 
community, industry, and civil society on the importance we attach to 
ratification of this convention.

    Question 13. The administration's proposal included $37 million in 
program support, including U.S. personnel costs.

  <bullet> f. How many additional U.S. personnel will be needed to 
        support the proposal in Mexico?
  <bullet> g. Will there be an increase in U.S. law enforcement agents 
        in Mexico?
  <bullet> h. Will contractors be used?
  <bullet> i. If so, how?

    Answer. The estimated program support costs for the Merida 
Initiative are based on an evaluation of support and oversight 
requirements in light of current programs in the Western Hemisphere 
Area (WHA) region and oversight initiatives implemented for the Iraq 
and Afghanistan programs.
    Such funds would be used primarily for personnel costs (some direct 
hire, but mostly contract U.S. and foreign national staff); additional 
office and residential space; International Cooperative Administrative 
Support Services (ICASS) costs; and other administrative expenses for 
program planning, design, and implementation.
    The program support funds will also encompass a proposed management 
support group to ensure compliance with U.S. Government internal 
controls for financial management, contract oversight, end-use 
monitoring while providing a platform dedicated to quality assurance, 
monitoring, and evaluation of the individual country programs.
    Initial personnel estimates indicate that providing the full level 
of program support and oversight functions will require up to 75 
additional personnel in Mexico and Central America. The majority would 
be foreign national staff filling financial management (accounting, 
voucher examination) and logistics support capacities, but would also 
include several personal services contract (PSC) personnel focusing on 
contract and project management and oversight.

    Question 14. How specifically will success be measured?

    Answer. The fight against organized crime and drug trafficking in 
Mexico and Central America is tough, complex, and long term. The 
commitment made by these countries is significant, and their 
democratically elected governments will be held to account by voters. 
The metric used by the citizens of Mexico and Central America will be 
palpable and reflect their individual experiences: Can they win back 
control of their communities and institutions, and build lives free of 
intimidation and fear?
    Our role in this great struggle is specific and immediate. In the 
short term, we will determine the effectiveness of the Merida 
Initiative by:

  <bullet> Increased arrests of drug traffickers and gang members, and 
        the harrassment and dismantling of organized crime syndicates;
  <bullet> Increased interdiction of illegal drugs and weapons;
  <bullet> Improved effectiveness of the national judicial systems, 
        leading to a reduction in criminal case backlogs, a reduction 
        in the average length of trials, and increased confidence in 
        the courts;
  <bullet> Improved law enforcement cooperation across institutional 
        and national boundaries, leading to greater coordination of 
        police action, and the ability to pursue and arrest criminals 
        throughout Mesoamerica.

    In the long term, we will measure the effectiveness of the Merida 
Initiative by its ability to transform the tone and substance of our 
bilateral and regional cooperation. The Merida Initiative represents a 
new and innovative method to address shared responsibilities and shared 
challenges. Its success, or failure, will shape the future of our 
relationships.

                                  <all>

</pre></body></html>
